Quarterly Progress and
Oversight Report on the Civilian
Assistance Program in Pakistan
As of September 30, 2010




 
Foreword
This is the third quarterly progress and oversight report on the U.S. Government’s civilian assistance
program in Pakistan. The report was requested by the U.S. Embassy in Pakistan and is intended to
inform stakeholders about progress achieved to date, problems encountered during program
implementation, and actions taken to address them.

This report covers July 1 through September 30, 2010. For fiscal year (FY) 2010, Congress
appropriated $1.514 billion from the Enhanced Partnership with Pakistan Act of 2009, along with other
assistance funds, to support the civilian assistance strategy in Pakistan. The U.S. Embassy reported that
$1.910 billion in FY 2010 funds had been obligated as of September 30, 2010.

The information on program status in this report is based on information provided by the departments
and agencies working in Pakistan—the U.S. Agency for International Development (USAID), the
Department of State, the Department of Defense, the Department of Agriculture, and the Department
of Commerce. The program oversight results are taken from audits, investigations, and inspections
performed by the Offices of Inspector General for USAID, the Department of State, and the
Department of Defense, as well as by the U.S. Government Accountability Office.




________________/s/ _______________________
The Honorable Donald A. Gambatesa
Inspector General
U.S. Agency for International Development



________________/s/ _______________________
The Honorable Harold W. Geisel
Deputy Inspector General
Department of State



________________/s/ _______________________
The Honorable Gordon S. Heddell
Inspector General
Department of Defense




 
Contents
Executive Summary ........................................................................................................................................................... 1

Background.......................................................................................................................................................................... 3

Program Status ................................................................................................................................................................... 7

    Flood Response Programs ........................................................................................................................................10

    High-Impact, High-Visibility Infrastructure Programs.........................................................................................11

    Focused Humanitarian and Social Services: Immediate Postcrisis and Humanitarian Assistance...........16

   Focused Humanitarian and Social Services: Increased Access to and Quality of Education and Health
   Services...........................................................................................................................................................................18

    Government Capacity Development: Improved National and Local Governance .....................................22

    Government Capacity Development: Improved Security and Legal Institutions .......................................27

    Assistance to Pakistani Institutions .........................................................................................................................28

Risks and Mitigation Strategies .....................................................................................................................................33

Staffing ................................................................................................................................................................................37

Oversight Status...............................................................................................................................................................38

    USAID Office of Inspector General........................................................................................................................38

    Department of State Office of Inspector General ..............................................................................................41

    Department of Defense Office of Inspector General ........................................................................................42

    Government Accountability Office.........................................................................................................................42

    Completed Oversight Reports, as of September 30, 2010...............................................................................45

Appendix I—The Enhanced Partnership with Pakistan Act of 2009, Public Law 111-73...............................47

Appendix II—–Abbreviations........................................................................................................................................50
 




Executive Summary
The Enhanced Partnership with Pakistan Act of 2009 (Public Law 111-73) authorizes democratic,
economic, and development assistance to Pakistan. The act authorizes a total of $7.5 billion for fiscal
years (FY) 2010 through 2014 to support assistance programs. The U.S. Department of State’s (DOS)
strategy report for providing civilian assistance outlines three key objectives:

•   Improve the Government of Pakistan’s capacity to address the country’s most critical infrastructure
    needs.

•   Help the Pakistani Government address basic needs and provide improved economic opportunities
    in areas most vulnerable to extremism.

•   Strengthen Pakistan’s capacity to pursue economic and political reforms that reinforce stability.

For FY 2010, Congress appropriated $1.514 billion from the act, in addition to other assistance funds, to
support the civilian assistance strategy. The U.S. Embassy reported that as of September 30, 2010,
$1.910 billion in 2010 funds had been obligated. These funds support U.S. Government assistance
programs and align with the three broad categories identified in the assistance strategy: high-impact,
high-visibility infrastructure; focused humanitarian and social services; and government capacity
development. The funds also support shifting requirements and needs as determined by the U.S.
Government.

Humanitarian services became the top priority when, on July 29, 2010, flooding submerged one-fifth of
Pakistan. This unprecedented humanitarian crisis affected over 20 million people. U.S. response to the
flooding was rapid and significant, closely coordinated with federal and local authorities in Pakistan. To
help the Government of Pakistan address the floods and their aftermath, the U.S. Government, including
the U.S. Agency for International Development (USAID), Department of State (DOS), and the
Department of Defense (DOD), provided funding totaling $431.2 million (as of September 30, 2010).
USAID provided emergency food assistance and shelter, along with relief commodities such as water
purification tablets and blankets. Also, USAID redirected funding and realigned its programs to support
agricultural recovery and mobile health teams. DOS funded shelter and nonfood assistance. DOD, too,
provided humanitarian assistance in the form of air support for rescue operations and the delivery of
relief supplies.

Amid relief and recovery efforts, USAID reported an increase in awards to Pakistani institutions. As of
September 30, 2010, USAID had made 61 awards totaling $1.268 billion to governmental and
nongovernmental Pakistani institutions. To overcome flood-related risks, such as implementation delays,
and the limited capacity of some Pakistani institutions, USAID has increased coordination with the
Government of Pakistan and other donors, provided capacity-building assistance, conducted preaward
assessments of local implementing partners, and instituted procedures to help ensure accountability for



                                                                                                        1
 


U.S. assistance funds. However, security threats and staffing shortages continue to impede the
implementation and monitoring of assistance programs.

Oversight entities have also taken steps to ensure that U.S. Government funds are protected against
waste and theft. The USAID Office of Inspector General (OIG) has established a field office in Pakistan,
and the DOS OIG is in the process of opening a Pakistan office. Also, the USAID OIG has vetted
independent Pakistani accounting firms to conduct financial audits of funds provided to Pakistani
nongovernmental organizations (NGOs), conducted joint investigations with the National Accountability
Bureau (NAB), and collaborated with USAID/Pakistan to establish a fraud hotline.

During the period covered by this report, July 1 through September 30, 2010, USAID OIG completed
one performance audit, one financial audit, and one financial review. The performance audit, of
USAID/Pakistan’s Family Advancement for Life and Health Program, found that the program had
increased demand for and improved family planning services. However, the audit also found that the
required financial audits of three Pakistani organizations receiving $24.7 million to help implement the
program had not been conducted, leaving the accountability of those funds in question. The OIG
recommended that USAID/Pakistan require its implementing partner to develop a plan of action for
completing the required financial audits. OIG’s financial audit was of Pakistan’s Competitiveness Support
Fund, a project designed to improve the competitiveness of small and medium-sized Pakistani industries
through technical assistance and a match-making grant facility. The audit identified significant deficiencies
in internal controls and recommended that USAID/Pakistan improve controls related to audit functions,
salary increases, and access to the Web server and determine the allowability of and recover, as
appropriate, questioned costs of $355,471.

In addition, USAID OIG conducted an investigation that led to two significant developments relating to
livelihood development programs in the Federally Administered Tribal Areas (FATA). After an ongoing
OIG investigation revealed evidence of fraud related to the procurement by a USAID implementing
partner of household kits for internally displaced persons (IDPs), USAID/Pakistan terminated a 5-year,
$150 million livelihood development program. As of September 30, 2010, the implementing partner had
returned $992,206 to USAID related to this investigation. Additionally, USAID/Pakistan terminated a
personal services contractor serving as the agreement officer’s technical representative for the
aforementioned livelihood development program and another program of the same type, with a
combined value of $300 million. The OIG investigation revealed that the officer had misused his position
for the personal gain of relatives and solicited favors from a prohibited source. The individual was
subsequently debarred from government contracts.

Several other audits, inspections, and evaluations are under way or planned for FY 2011. USAID OIG
has three performance audits and six financial audits under way, along with eight open investigations.
For the rest of FY 2011, USAID OIG plans to conduct six performance audits and two financial audits.
DOS OIG has one performance evaluation under way and another three evaluations planned for FY
2011. DOD OIG has one Pakistan assignment planned for FY 2011, and the Government Accountability
Office (GAO) has five ongoing engagements concerning Pakistan.




                                                                                                           2
Background
The U.S. Government affirmed its commitment to a renewed U.S.-Pakistan partnership by signing the
Enhanced Partnership with Pakistan Act of 2009 (Public Law 111-73, 123 Stat. 2060). The act articulates
the U.S. Government’s intention to work with the Government of Pakistan to build mutual trust and
confidence by actively and consistently pursuing a sustained, multifaceted relationship devoted to
strengthening mutual security, stability, and prosperity. The act authorizes $1.5 billion per year for
FY 2010–14, for a total of $7.5 billion, to support democratic, economic, development, and security
assistance. Appendix I presents the key provisions of the act, and Appendix II contains abbreviations
used in this report.

In connection with the act, the Department of State developed a strategy for providing democratic,
economic, and development assistance to Pakistan. 1 The strategy seeks to build a broad and deep
relationship with Pakistanis and their government, aligning U.S. assistance more closely with Pakistan’s
development and investment priorities. The strategy report outlines three key objectives:

•      Improve the Pakistani Government’s capacity to address the country’s most critical infrastructure
       needs.

•      Help the Pakistani Government address basic needs and provide improved economic opportunities
       in areas most vulnerable to extremism.

•      Strengthen Pakistan’s capacity to pursue economic and political reforms that reinforce stability.

The strategy features programming in five areas: (1) high-impact, high-visibility infrastructure programs,
(2) focused humanitarian and social services—immediate postcrisis and humanitarian assistance, (3)
focused humanitarian and social services—increased access to and quality of education and health
services, (4) government capacity development—improved national and local governance, and (5)
government capacity development—improved security and legal institutions. Table 1 presents funding
planned for activities in these areas for FY 2010–14.




                                                            
1
    Pakistan Assistance Strategy Report, December 14, 2009.


                                                                                                           3
                                Table 1. Projected* U.S. Assistance to Pakistan, FY 2010–14 

                                                  Activities                                   ($ Millions)
                  Investment in high-impact, high-visibility infrastructure
                                                                                                   3,500
                  programs
                     Agriculture                                                                   2,000
                     Support for permanent solutions to Pakistan’s energy crisis                   1,000
                     Other infrastructure                                                            500
                  Focused humanitarian and social services                                         2,000
                     Immediate postcrisis and other humanitarian assistance                          500
                     Increased access to and quality of education and health services              1,500
 
                  Government capacity improvement                                                  2,000
                     Improved national and local governance                                        1,000
                     Improved security and legal institutions                                      1,000
                   Total                                                                           7,500
                  * The figures provided were developed for general planning purposes and are subject to
                  change.
                  Source: U.S. Department of State, Pakistan Assistance Strategy Report, December 14, 2009.

For FY 2010, Congress appropriated $1.514 billion from the act, in addition to other assistance funds.
These funds were to be used by U.S. departments and agencies working in Pakistan to implement the
programs identified in the civilian assistance strategy and respond to shifting requirements and needs as
determined by the U.S. Government.

From July 22 to July 31, 2010, heavy monsoon rainfall triggered floods submerging one-fifth of Pakistan.
This unprecedented humanitarian crisis affected over 20 million people, killing more than 1,800, injuring
more than 2,700, and displacing millions whose homes were damaged or destroyed. Although damage
from the flooding was concentrated—75 percent of the affected population resided in just two
provinces—the flooding affected 82 of Pakistan’s 122 districts.

In response to the flooding, the Government of Pakistan’s National Disaster Management Authority
(NDMA) assisted with evacuation efforts and distributed emergency relief supplies to affected provinces.
Additionally, the NDMA established camps for families displaced by the floods in the hardest-hit
provinces, Punjab and Sindh. Moreover, the Government of Pakistan asked for and received assistance
from several U.N. agencies, such as the U.N. Office for the Coordination of Humanitarian Affairs and
the World Food Programme.

The U.S. Government responded to the crisis by supporting immediate relief efforts—channeling
$295 million through local and international organizations, the Pakistan NDMA, and the U.N. emergency
response plan—and committing $50 million for initial recovery efforts to assist in rebuilding flooded
communities. 2 The U.S. Government also provided civilian and military in-kind assistance including halal


                                                            
2
   U.S. Department of State, “Update: U.S. Response to Pakistan’s Flooding Disaster,” press release, September 22,
2010. 

                                                                                                                4
meals, prefabricated steel bridges and other infrastructure support, and air support to transport more
than 16 million pounds of relief supplies and evacuate more than 23, 000 people.

The U.S. response reflects the mutual and sustained relationship fostered by the Enhanced Partnership
with Pakistan Act of 2009. USAID Administrator Rajiv Shah characterized the U.S. commitment as both
immediate and intense and said it would endure through all phases of the relief, recovery, and
reconstruction effort. 3 Similarly, during his recent trip to flood-affected areas in Pakistan, Ambassador
Richard Holbrooke, the U.S. Special Representative to Afghanistan and Pakistan, depicted U.S. efforts as
a humanitarian action linking the people of the United States with the people of Pakistan. He also
expressed the U.S. Government’s intention to “increase its contributions as time goes on.” 4

On September 16, 2010, the U.S. House of Representatives approved Resolution 1613, which reaffirmed
“the commitment of the people of the United States to partner with the people of Pakistan to respond
to the immediate crisis and build the foundations for a successful and lasting recovery.” The resolution
explicitly supported the use of funds authorized by the act to provide long-term recovery and
rehabilitation for flood-affected areas and populations. The resolution further urged “a reexamination of
priorities for spending the funds authorized under the Enhanced Partnership with Pakistan Act of 2009,
with a view toward ensuring that the needs of the Pakistani people are appropriately addressed in the
aftermath of the disaster.”

In addition to providing the previously mentioned funds under the act, the U.S. Congress established a
Pakistan Relief Fund through the Department of State for public contributions. These support relief,
recovery, and reconstruction programs carried out by the Department of State, USAID, and other
federal agencies, as well as by international organizations and nonprofit organizations. During August,
the fund raised approximately $2 million. The U.S. private sector more than matched these
contributions, donating $10.5 million to flood relief efforts. 5

Following the initial relief efforts in Pakistan, Secretary Clinton emphasized the important role the
Pakistani Government will play in helping shape a strategy that reflects the needs of the Pakistani people.
She said that, following a damage and needs assessment, U.S. commitments would be further refined in
meetings of the international development community in October and November 2010. Until then,
Secretary Clinton stressed the need for improving the coordination of efforts, taking into account the
needs of Pakistanis, and maintaining well-organized aid delivery. 6




                                                            
3
   Remarks at the Asia Society’s Pakistan Flood Response Event, New York, August 19, 2010. 
4
    U.S. Embassy Islamabad, “Ambassador Holbrooke Promises Continued U.S. Flood Relief Support to Pakistan,”
press release, September 16, 2010. 
5
   U.S. Department of State, “Update: U.S. Response to Pakistan’s Flooding Disaster,” press release, September 22,
2010. 
6
    U.S. Department of State, “Secretary of State Clinton at the High-Level Ministerial Meeting on the Flood
Emergency in Pakistan,” press release, September 19, 2010.  


                                                                                                                5
                        Flood Map of Pakistan as of September 30, 2010




Source: USAID’s Office of Foreign Disaster Assistance, Geographic Information Unit




                                                                                     6
Program Status
The U.S. departments and agencies delivering development assistance in Pakistan are implementing,
designing, and negotiating programs to accomplish the objectives of the Enhanced Partnership with
Pakistan Act. The following sections provide an overview of program status.

The U.S. Embassy reported that as of September 30, 2010, $3.638 billion in FY 2009 and 2010 funds had
been obligated to support the civilian assistance strategy (Table 2). Expenditure information
corresponding to these obligations was not provided.

                   Table 2. Program Financial Status as of September 30, 2010
                                         ($ Millions)

            Program                  Manager             FY 2009     FY 2010       Total        FY 2010
                                                         Obligated   Obligated   Obligations   and Prior
                                                                                               Pipeline*
Flood Response (Emergency Relief and Early Recovery)
World Food Programme–Flood           USAID                              137.4        137.4        20.0
Humanitarian Programs, Office of
                                     USAID                               60.0          60.0       40.0
Transition Initiatives (OTI)–Flood
Humanitarian Programs, Office of
                                     USAID                    –         115.0        115.0        84.8
Foreign Disaster Assistance–Flood
Narcotics Affairs Section (NAS),                                       in-kind    in-kind
                                     NAS                      –                                    –
U.S. Embassy Islamabad–Flood                                          support    support
                                     Political Affairs
Pakistan Internally Displaced        Section (POL),
                                                              –          49.3          49.3        –
Persons–Flood                        U.S. Embassy
                                     Islamabad
Overseas Humanitarian, Disaster,
                                     DOD                      –          64.2          64.2        5.0
and Civic Aid–Flood
Subtotals                                                     –         425.9        425.9      149.8
High-Impact, High-Visibility Programs
                                     U.S. Department
International Trade Administration                            0.8         3.8           4.6        1.6
                                     of Commerce
                                     U.S. Department
Foreign Agriculture Programs                                 44.0         –            44.0       20.0
                                     of Agriculture
USAID transfer to U.S. Trade and
                                     USTDA                    5.0         1.0           6.0        5.8
Development Agency (USTDA)
FATA Roads/Bridges                   NAS                     15.0         –            15.0       13.6
FATA Roads (Swat, Ring-Road)         NAS                     40.0         –            40.0       40.0
Energy                               USAID                  125.0        44.8        169.8       130.3


                                                                                                         7
              Program              Manager           FY 2009     FY 2010       Total        FY 2010
                                                     Obligated   Obligated   Obligations   and Prior
                                                                                           Pipeline*
Agriculture                        USAID                 95.0        65.6        160.6       109.0
Economic Growth                    USAID                172.0       234.7        406.7       406.6
Subtotals                                              496.8        349.9        846.7      726.9

Focused Humanitarian and
Social Services
Health/Water                       USAID                102.0       131.5        233.5       246.3
Health                             USAID                 33.5        –            33.5        –
Education                          USAID                163.5       259.3        422.8       478.5
Humanitarian Assistance            USAID                209.0        75.0        284.0         5.3
Humanitarian Programs, Office of
                                   USAID                105.8        18.0        123.8        22.9
Foreign Disaster Assistance
World Food Programme               USAID                 55.4        98.3        153.7        –
USAID Transfer to United Nations
                                   U.N.                   1.0         –            1.0        –
Bhutto Commission
Community Stabilization and
                                   DOD                   10.0         –           10.0         9.3
Humanitarian Assistance Fund
Overseas Humanitarian, Disaster,
                                   DOD                    0.4         –            0.4         1.3
and Civic Aid —Flood
                                   U.S. Department
Mitigating Child Labor                                    –           4.0          4.0        –
                                   of Labor
Mine Action -Response
                                   POL                    0.5         –            0.5         0.2
International
Trafficking in Persons             POL                    0.5         –            0.5         0.4
Pakistan Internally Displaced
                                   POL                   59.6        42.0        101.6        –
Persons
Afghan Refugees                    POL                   74.7        45.3        120.0        –
                                   Public Affairs
                                   Section (PAS),
Fulbright                                                19.5        19.5         39.0        –
                                   U.S. Embassy
                                   Islamabad
Other Exchanges                    PAS                   35.0        30.0         65.0        –
Public Diplomacy Operating
                                   PAS                    2.0         2.0          4.0        –
Expenses
Subtotals                                              872.4        724.9      1,597.3      764.2
Government Capacity Improvement
Drug Enforcement Agency (DEA)      DEA                    1.5         1.5          3.0         –
                                   U.S. Department
Energy Programs                                          66.6        94.2        160.8        66.7
                                   of Energy



                                                                                                     8
             Program                Manager             FY 2009       FY 2010         Total          FY 2010
                                                        Obligated     Obligated     Obligations     and Prior
                                                                                                    Pipeline*
Department of Homeland Security
(DHS)/Immigration & Customs         DHS                       1.1           1.1            2.2           –
Enforcement
Federal Bureau of Investigation
                                    FBI                       1.0           1.8            2.8           1.3
(FBI)/Legal attaché
Democracy Rights Labor              POL                       6.8           –              6.8           1.4
Democracy – National Endowment
                                    POL                       –             –              –            –
for Democracy
Counternarcotics                    NAS                       3.0           5.5            8.5         11.8
Border Security –Aviation           NAS                      37.0          45.9           82.9         76.9
Border Security – Commodities,
                                    NAS                       0.2           –              0.2           6.2
Training
Police/Law Enforcement
                                    NAS                      51.0          66.6          117.6        132.8
Training/Rule of Law
Demand Reduction/Awareness          NAS                       0.5           1.5            2.0           2.7
Program Development Support         NAS                       9.8           4.4           14.2           0.5
                                    Regional Security
                                    Office (RSO),
Counterterrorism                                             11.8           –             11.8           0.2
                                    U.S. Embassy
                                    Islamabad
                                    Economic Affairs
                                    Section, U.S.
Biosecurity Engagement                                       12.5          16.0           28.5         18.1
                                    Embassy
                                    Islamabad
U.S. Institute for Peace (USIP)     USIP                      –             0.9            0.9           0.3
Democracy/Governance                USAID                    50.0         140.4          190.4        209.3
Office of Transition Initiatives    USAID                    68.0          18.2           86.2         55.0
Subtotals                                                  320.8         398.0           718.8        583.2
Other Programs
Strategic Communications            DOD                       7.0           7.0           14.0          –
Strategic Communications            PAS                      30.9           4.0           34.9         46.0
Subtotals                                                    37.9          11.0           48.9         46.0
Totals                                                   1,727.9       1,909.7         3,637.6      2,270.1

* At the request of U.S. Embassy Islamabad, pipeline data are included that capture unspent funds from FY 2010
back to FY 2002. These data are not comparable to FY 2009 and 2010 obligations or accurate indicators of
expenditures for those years.
Source: U.S. Embassy Islamabad


 




                                                                                                               9
Flood Response Programs

The United States has responded immediately and generously to Pakistan's call for assistance following
the devastating floods that began July 29, 2010. The U.S. Government’s response has been consistent
with its humanitarian values and commitment to Pakistan. Support to Pakistan includes financial
assistance and provision of urgently needed supplies and services.

As of September 30, 2010, the U.S. Government, including USAID, DOS, and Defense, had provided a
total of $431.2 million to assist with relief and recovery efforts, including $381.2 million to support
immediate relief efforts. Also included in the total was $60 million from the Enhanced Partnership with
Pakistan Act—$10 million was allocated for immediate relief efforts and another $50 million for initial
recovery efforts, to assist with rebuilding communities affected by the floods.

The flood response by USAID has been rapid and significant and closely coordinated with federal and
local Pakistani authorities. As of September 30, 2010, USAID had provided $313.4 million for
emergency relief and early recovery through the following entities:

•      $137 million from USAID’s Office of Food for Peace for emergency food assistance, $122 million to
       the U.N. World Food Programme’s Emergency Operation and $15 million through two NGOs for
       food voucher programs.

•      $113.8 million from USAID’s Office of U.S. Foreign Disaster Assistance for humanitarian assistance,
       providing emergency shelter for nearly 364,000 people, nutrition assistance for 60,000 children, and
       other relief commodities such as inflatable rescue boats, water purification tablets, and blankets.

•      $62.6 million from USAID/Pakistan for flood response support. The mission’s largest program was a
       $16 million grant to the U.N. Food and Agriculture Organization to provide seeds and farming
       inputs to flood-affected farmers so that they could plant the badly needed winter wheat crop before
       the end of the planting season. The funds also enabled two local organizations of which USAID had
       conducted preaward assessments 7 to procure and distribute relief goods and food to flood-affected
       individuals. Additionally, USAID/Pakistan supported Pakistan’s National Disaster Management
       Authority (NDMA), through a grant to the International Organization for Migration, in procuring
       relief supplies for NDMA distribution. The remaining funding supported mobile health teams,
       immunizations, safe drinking water, and the procurement of reproductive health kits for thousands
       of flood-affected pregnant women.

Of the total of $431.2 million in U.S. Government support, DOS provided $53.1 million for emergency
relief and early recovery, distributed as follows:

•      $31.2 million from the DOS Bureau of Population, Refugees, and Migration (PRM) to the U.N. High
       Commissioner for Refugees (UNHCR) for protection, emergency shelter, and camp management.

                                                            
7
  Preaward assessments examine organizational and management structure, accounting, financial management
systems, internal controls, technical capabilities, and quality assurance capabilities, as well as the organizations’
policies, procedures, and practices for effective and efficient management of USAID/Pakistan resources.

                                                                                                                  10
    With the funding, UNHCR assisted 1.4 million flood-affected people with shelter and nonfood items
    across Pakistan.

•   $18 million from PRM to the International Committee of the Red Cross for relief distributions,
    water supply restoration, and preventive health measures.

•   $3.9 million from the Bureau for International Narcotics and Law Enforcement Affairs (INL) for
    bridges ($3.2 million), a generator ($0.03 million), and air support ($0.69 million).

Another $64.2 million of the total U.S. Government contribution to date has come from DOD, and
another $3.9 million from INL, in the form of civilian and military in-kind assistance for halal meals,
infrastructure support, and air support to and within Pakistan to transport goods and rescue people.
The United States has 26 military helicopters in Pakistan supporting relief efforts, with more offshore on
the USS Peleliu. U.S. aircraft have evacuated more than 23,000 people and delivered more than
16 million pounds of humanitarian relief supplies. Hundreds of U.S. military and civilian personnel are
working in Islamabad, in flood-affected areas, and at Pakistani military bases in support of flood relief
operations.

The U.S. Government is considering how to respond most effectively to address the extensive damage
wrought by the floods while maintaining its focus on the long-term goals of the Enhanced Partnership
with Pakistan Act. U.S. actions will be guided by the findings of a comprehensive damage and needs
assessment, due to be released in October 2010. Approximately $290 million in funding from the act,
beyond the $60 million already announced, has been tentatively identified to address early recovery and
reconstruction activities. This includes funding for energy, agriculture, education, health, economic
growth, and democracy and governance programs.

High-Impact, High-Visibility Infrastructure Programs

As the name implies, this category of assistance is intended to make a big difference in the Pakistani
economy, a difference that improves people’s livelihoods quickly, noticeably, and directly. The sectors in
which infrastructure programs are most critical are energy and agriculture—energy because all
businesses rely on it, and agriculture because it employs 60 percent of the population and consumes
90 percent of the country’s water. Chronic periodic shortages of both power and water limit economic
growth, as does inadequate infrastructure for agroenterprise.

The devastating floods have significantly affected the agricultural sector. USAID is realigning its portfolio
of programs to recover arable land for food production during the coming winter. USAID, the U.S.
Department of Agriculture (USDA), the U.S. Department of Commerce (DOC), and the U.S. Embassy’s
Public Affairs Section (PAS) support programs in this category of assistance.

USAID/Pakistan’s Agriculture Office is realigning its portfolio to play a large part in flood relief and
recovery efforts, as 80 percent of the flood-affected population relies on subsistence agriculture for food
and income. To this end, the office has postponed by at least 18 months two previously planned water


                                                                                                          11
management programs and refocused funding for the agricultural recovery program for Swat and Buner.
Similarly, ongoing planning for support to the dairy and livestock sector has been refocused on livestock-
related recovery. However, both the previously planned surface water management program for
Balochistan and the support to complete the irrigation system of Gomal Zam in Waziristan are going
forward.

In addition to the realignment, the Agriculture Office has developed a three-phase flood recovery
strategy. Phases 1 and 2 focus on the winter and spring planting seasons and livestock recovery to
increase food security, while Phase 3 focuses on infrastructure development in critical areas identified by
flood damage assessments. Phase 1 of the agricultural flood relief and recovery program is targeted, as
of September 2010, to provide support to over 211,300 of the most vulnerable farming households in
Khyber Pakhtunkhwa, comprising 1,690,400 people. Concepts for additional programs under this phase
are under review.

USAID has 18 high-impact, high-visibility programs under way, 8 of which began this quarter. USAID’s
new programs seek to assist Pakistan’s provincial governments with water management, supply, and
sanitation; health facilities; and the delivery of municipal services. USAID’s new programs also support
the Government of Pakistan in supplying hydropower through the rehabilitation of the Gomal Zam and
Satpara Dams to meet growing energy demands.

In addition to current programs, USAID has six infrastructure programs planned. These programs will
address water supply and sanitation and build health facilities including a postgraduate medical center
and two hospitals. Table 3 lists USAID’s current and planned programs.

  Table 3. USAID’s High-Impact and High-Visibility Programs as of September 30, 2010

         Implementing Partner                       Program Description                     Status
Provincial Government of Punjab              Municipal Services Delivery Program    Current; new
                                             Water supply and sanitation programs
Provincial Government of Sindh                                                      Current; new
                                             in Jacobabad
Provincial Government of Balochistan         Balochistan surface water management
                                                                                    Current; new
                                             (agriculture)
Ministry of Food and Agriculture             High-efficiency irrigation systems     Current; new
Water and Power Development Authority        Satpara Dam, hydropower and
                                                                                    Current; new
(WAPDA)                                      irrigation
                                             Power Distribution Companies
International Resources Group (IRG)                                                 Current; new
                                             Performance Improvement Program
Ministry of Health and
                                             Lady Willingdon Hospital               Current; new
Provincial Government of Punjab
Ministry of Health and
                                             Jacobabad Civil Hospital               Current; new
Provincial Government of Sindh




                                                                                                        12
          Implementing Partner                      Program Description                       Status
International Organization for Migration,
                                             Quick-impact infrastructure in FATA       Current
Creative Associates, Internews
Habib-Rafique (Pvt.) Ltd.                    Construction of Parliamentary Institute   Current

Ministry of Water and Power (MWP), Power     Jamshorro thermal power station
                                                                                       Current
Generation Company (GENCO I)                 repair and maintenance
                                             Muzaffargarh thermal power station
MWP (GENCO II)                                                                         Current
                                             repair and maintenance
                                             Guddu thermal power station repair
MWP (GENCO III)                                                                        Current
                                             and maintenance
                                             Tarbela hydroelectric power station
WAPDA                                                                                  Current
                                             rehabilitation
IRG (previously Multan Electric Power        Irrigation Tube Well Efficiency
                                                                                       Current
Company)                                     Improvement Project
                                             Development of a model and
                                             implementation plan for the
Knowledge Platform, SMC-PVT, Limited                                                   Current
                                             transformation of the agricultural
                                             supply chain in the District of Swat.
                                             South Waziristan Quick-Impact
Government of Pakistan                                                                 Current
                                             Program (road, water, and electricity)
                                             Malakand Quick-Impact Program
Government of Pakistan                       (schools, health, water and sanitation,   Current
                                             government capacity)
                                             Gomal Zam Dam, hydropower and
WAPDA                                                                                  Negotiating
                                             transmission line completion

WAPDA                                        Gomal Zam irrigation (agriculture)        Negotiating

Ministry of Health and                       Jinnah Postgraduate Medical Center
                                                                                       Negotiating
Provincial Government of Sindh               OB-GYN/Fistula Ward
Provincial Government of                     Water Supply and Sanitation Program
                                                                                       Designing
Khyber Pakhtunkhwa                           in Peshawar

Government of Pakistan                       Wana Power Station                        Designing

                                             South Waziristan, DI Khan irrigation
WAPDA                                                                                  Designing
                                             (agriculture)

Source: USAID/Pakistan

In response to USAID OIG’s request for information on the progress of these programs, USAID
provided its performance indicators, but no information on actual progress. Moreover, the
performance indicators listed below differ from the illustrative indicators provided in previous quarterly
reports because USAID/Pakistan is in the process of establishing new indicators across all sectors.
While USAID has not yet set targets for these indicators, it does plan to track the indicators below.
Accordingly, progress on programs under this category of assistance will be available when USAID


                                                                                                       13
begins to track actual results achieved on its performance indicators. We believe that USAID has an
imperative to accumulate, analyze, and report information on the results achieved under its programs. 

The following are the output indicators with FY 2010 targets, as available, reported by USAID:

•   Percent of referral facilities upgraded and meeting safe birth and newborn care quality standards
    (target and result: no data).

•   Megawatt capacity constructed as a result of U.S. Government assistance (target and result: no
    data).

•   Total U.S. dollar value of energy infrastructure construction (target: $30 million; result: no data).

•   Number of additional hectares under irrigation (target and result: no data).

Additionally, USAID reported the following successes and examples of progress in its agricultural and
energy programs:

•   The Office of Agriculture quickly and successfully developed and implemented programs to support
    flood recovery.

•   The procurement, shipping, and installation of major equipment for the Tarbela Dam are on
    schedule. Expected benefits from the additional 80 megawatts of hydropower generated will be
    gained during the second quarter of FY 2011.

•   Environmental management and monitoring plans for both Gomal Zam and Satpara Dams are being
    developed to ensure compliance with U.S. environmental regulations.

USAID also reported the following challenges to the implementation of its agricultural and energy
programs:

•   Hiring sufficient and skilled staff in a timely manner is a challenge because the program is growing
    rapidly and the hiring process has not yielded expected results.

•   Before USAID shifted FY 2009 and 2010 resources to flood relief and recovery, progress on
    implementing high-efficiency irrigation systems through a Government of Pakistan program was
    stalled, the Pakistani Government’s Central Development Working Party having delayed program
    approval.

USDA’s programming in this category focuses on modernizing agricultural infrastructure. In early
September 2010, USDA signed a $30 million Food for Progress grant agreement with a U.S.-based NGO
to implement a new Pakistan Agriculture and Cold Chain Development Project. The project aims to
advance agriculture in the Balochistan Province of southwest Pakistan by linking private sector




                                                                                                            14
participants in the production of perishable goods with new cold-chain facilities 8 and enhanced
production techniques. Implementing international phytosanitary and regulatory standards will also help
shift horticultural and fish production toward larger, more profitable markets. By carrying out these
activities, the project seeks to improve food quality and supply, realize higher prices for producers, and
ensure a higher-value end product to consumers. Winrock International, the U.S.-based grantee, has
begun the implementation phase of the project.

As reported last quarter, USDA’s plan for the investment of resources to support agricultural
development in Pakistan has been reviewed and approved by an interagency team and the U.S. House of
Representatives Committee on Appropriations. Concept notes have been shared with Pakistani and
international partners, and program design will begin shortly.

DOC programs focus on the Pakistani private sector. In late September, DOC signed a contract to
begin a new trade and investment promotion effort. During the reporting period, an investment
promotion event was held in Karachi, and trade promotion outreach efforts were undertaken in
Gujranwala, Bahawalpur, and Multan. DOC initiated a second investment-related program during the
quarter that seeks to develop 40 prospectuses on potential projects in Pakistan—in the energy,
transportation, telecommunications, oil and gas, and agribusiness sectors—to be shared with interested
investors.

In addition to its current activities, DOC is planning programs dealing with business development and
commercial law. One of these, the Special American Business Internship Training Program, likely will
engage the services of the Karachi-based Center for International Private Enterprise. The other
program, the Commercial Law Development Program, is in negotiations with the National University of
Sciences and Technology for exchanges with the judiciary. Such exchanges are already taking place; as
part of an ongoing initiative, officials from the DOC Office of General Counsel traveled to Pakistan to
enhance the judiciary’s enforcement of intellectual property protection and international commercial
arbitration awards.

Despite its efforts to promote trade and investment, DOC reported that concerns about physical
security continue to deter travel to Pakistan by American business executives, adding a significant
challenge to attracting new investors and commercial ventures.

For its part, PAS has two communications programs in the category of high-impact, high-visibility
infrastructure: the reestablishment of three public diplomacy centers and the procurement of electronic
governance infrastructure. Secure, open-access public diplomacy centers in Islamabad, Karachi, and
Lahore will be used for outreach to young Pakistanis. Because the previous centers had degraded or
were unusable, during the period an assessment team reviewed proposed replacement sites.

In addition to the public diplomacy centers, PAS has a $14 million electronic governance infrastructure
project under way with Pakistan’s Ministry of Information Technology. The program will provide the
Government of Pakistan with needed information technology (IT) infrastructure and enable a series of
                                                            
8
    Cold-chain facilities keep goods such as food at a controlled temperature at all stages of storage and distribution.


                                                                                                                      15
electronic public services. Negotiations are under way with the Government of Pakistan concerning the
final specifications for a data center that will provide the government with its first integrated,
interagency IT structure. The Ministry of Information Technology has begun preliminary planning with
other agencies to identify and prioritize electronic public services to be implemented.   


Focused Humanitarian and Social Services: Immediate Postcrisis and
Humanitarian Assistance
 
The U.S. Government channels assistance for people affected by natural disasters or ongoing military
operations in Waziristan and other areas along the border with Afghanistan through international relief
agencies and local institutions. In addition, the U.S. Government supports the Government of Pakistan’s
efforts to provide basic health, education, and other services; rehabilitate infrastructure; and create jobs.
USAID manages the largest U.S. Government humanitarian assistance programs in Pakistan, while DOD
manages some smaller food and medical assistance programs. In addition, PAS organizes exchange
programs for water resource management and emergency preparedness.

During the reporting period, USAID completed 1 program and has another 21 programs under way to
support immediate postcrisis and humanitarian assistance. USAID fulfilled its commitment to provide
budget support for the Benazir Income Support Program in the amount of $160 million and is now
monitoring the Pakistani Government’s use of the funds. Of USAID’s current programs, seven began
this quarter in response to the flooding. USAID initiated programs to provide relief supplies, safe
drinking water, nutritional support, and health and hygiene kits to flood-affected areas. USAID also has
economic revitalization programs in areas vulnerable to conflict, such as Khyber Pakhtunkhwa and
FATA.

Along with current programs, USAID is planning three programs for FY 2011. These include the
provision of grants to conflict- and flood-affected businesses in Khyber Pakhtunkhwa and the
rehabilitation and construction of health facilities. Table 4 lists USAID’s current and planned programs
for postcrisis and humanitarian assistance.

          Table 4. USAID’s Postcrisis and Humanitarian Assistance Programs as of
                                   September 30, 2010

Implementing Partner                      Program Description                               Status
                            Mobile health teams and nutritional support in
Aga Kahn University                                                               Current; new
                            flood-affected areas
United Nations Population   Reproductive health and hygiene kits for women in
                                                                                  Current; new
Fund                        flood-affected areas
World Health
Organization and United     Immunizations for polio and measles in flood-
                                                                                  Current; new
Nations Children’s Fund     affected areas
(UNICEF)
                            Maternal/child health safe drinking water in flood-
UNICEF                                                                            Current; new
                            affected areas
World Bank                  Multidonor trust fund which will be used to repair    Current; new


                                                                                                          16
Implementing Partner                     Program Description                                      Status
                             flood damaged facilities
Pakistan Poverty             Procurement and distribution of relief supplies for
                                                                                    Current; new
Alleviation Fund             flood-affected people
Rural Support Program        Procurement and distribution of relief supplies for
                                                                                    Current; new
Network                      flood-affected people
                                                                                    Current; USAID provided an
                             Cash transfer for the Benazir Income Support           additional $75 million in July,
Government of Pakistan
                             Program                                                bringing the total to $160
                                                                                    million.
                             Build small and medium enterprise competitiveness
Chemonics                                                                           Current
                             in areas vulnerable to conflict
Khushhali Bank               Grants to terrorism-affected businesses                Current
                             South Waziristan Quick Impact Program
FATA Secretariat                                                                    Current
                             (community projects in conflict-affected areas)
CHF International, Inc.      Livelihood Development Program in lower FATA           Current
World Food Programme         Emergency operation in Pakistan                        Current
World Food Programme         Food Security Relief Program in Pakistan               Current
Associates in                South Waziristan Agency Monitoring and
                                                                                    Current
Development                  Evaluation Contract
                             Cash transfer to assist IDPs in Khyber
Government of Pakistan                                                              Current
                             Pakhtunkhwa—disbursed 11/2009
Provincial Reconstruction,                                                          Current; funds disbursed to
                             Cash transfer for housing damage assistance for
Rehabilitation and                                                                  the Government of Pakistan
                             Khyber Pakhtunkhwa and FATA
Settlement Authority                                                                (GOP)
Pakistan Broadcasting
                             Radio transmission support to FATA                     Current
Corporation
CDM Constructors, Inc.       Pakistan Reconstruction Project                        Current
                             CRISP: Community Rehabilitation Infrastructure
Winrock International                                                               Current
                             Support Program
                             Accelerated capacity building of Provincial Relief,
KPMG Taseer Hadi                                                                    Current
                             Rehabilitation and Settlement Authority
International and local
                             Pakistan Conflict Assistance Program                   Negotiating
organizations
Pakistani organization       Rehabilitation and construction of health facilities   Designing
Mennonite Economic           Khyber Pakhtunkhwa Economic Revitalization
                                                                                    Concept Stage
Development Associates       Program grants to conflict- and flood-affected firms
Source: USAID/Pakistan

In response to USAID OIG’s request for information on the progress of these programs, USAID
provided the following performance indicators for FY 2010, along with associated annual targets. As
shown below USAID met two of its three annual targets.

•   U.S. dollar value of income support provided to the Benazir Income Support Program (target: $160
    million; result: $160 million—$75 million provided this quarter, in addition to $85 million previously
    disbursed).




                                                                                                                  17
•   U.S. dollar value of support provided to the Multi-Donor Trust Fund (target: $25 million; result: $25
    million provided this quarter).

•   Number of families benefiting from USAID budget support to the Benazir Income Support Program
    (target: 600,000 family years of support; result: 167,000 family years of income support).

USAID reported that it did not establish indicators, or related targets, for flood programming.
However, USAID provided the following two examples of progress in its flood response programs:

•   25 medical teams are providing primary health care services and nutritional supplements in flood-
    affected areas.

•   169 mobile health clinics are operating in relief camps, including in flood-affected areas.

Additionally, USAID provided the following examples of progress in its immediate postcrisis and
humanitarian assistance programs:

•   In July 2010, USAID disbursed a $75 million cash transfer to the Benazir Income Support Program.
    The program is making progress in preparing a national Poverty Scorecard, which will allow the
    program to better target the use of the budget support funds by June 30, 2011.

•   In July 2010, USAID disbursed a $25 million grant to the World Bank to finance part of the Multi-
    Donor Trust Fund for northwestern Pakistan. The grant funds are to be used to repair flood-
    damaged facilities. The trust fund is assembling administrative staff to vet proposed projects and has
    held the first meeting of its steering committee. The trust fund plans to make as rapid a start as
    possible in financing specific projects.

DOD contributes to humanitarian assistance with smaller food and medical programs. DOD’s programs
help Pakistanis in areas of insurgency. In FY 2010, DOD committed $30,000 to this effort.

As for PAS, it has worked to strengthen public perceptions of the United States following the
devastating floods. PAS organized an exchange program on water resource management between the
Pakistani and U.S. Governments; the exchange group was planning to travel to the United States in
October 2010. Other exchange groups on emergency preparedness and water resource management
may take place in 2011.  

Focused Humanitarian and Social Services: Increased Access to and
Quality of Education and Health Services

This category of assistance aims to provide quality education and health services to underserved
populations, particularly those living in areas likely to come under the sway of extremist groups. In
education, programs intend to bring more girls into the classroom, increase the use of new educational
technologies, and improve teachers’ skills. In health care, the goals are to improve maternal and child
care, provide family planning services, and prevent and treat diseases such as hepatitis, polio, and


                                                                                                       18
tuberculosis. USAID is the primary U.S. Government agency contributing to this area of assistance;
USDA and PAS also manage programs in this area.

USAID has 27 programs under way to support increased access to and quality of education and health
services, including 5 programs that began this quarter. These new programs focus on educational
improvement in Balochistan, Khyber Pakhtunkhwa, Punjab, and Sindh Provinces and in FATA. USAID
also supports health programs to provide safe drinking water, improve children’s health in FATA, and
aid in polio eradication.

In addition to its current programs, USAID is planning seven programs for education and health
assistance. Of these programs, two relate to education and five to health. All seven are to be
implemented by Pakistani institutions. Table 5 lists USAID’s current and planned programs for health
and education.

 Table 5. USAID’s Programs for Education and Health Services as of September 30, 2010

 Implementing Partner                        Program Description                               Status
Provincial Government of
                              Southern Punjab Basic Education Program                Current; new
Punjab
Provincial Government of
                              Sindh Education Program                                Current; new
Sindh
Provincial Government of
                              Balochistan Education Program                          Current; new
Balochistan
Provincial Government of
                              Khyber Pakhtunkhwa Education Program                   Current; new
Khyber Pakhtunkhwa
FATA Secretariat              FATA Education Program                                 Current; new
Lahore University Institute   Educational outreach program for youth from
                                                                                     Current
of Management Sciences        vulnerable areas
                              Scholarships for men and women from vulnerable and
Forman Christian College                                                             Current
                              underserved areas
Academy for Educational
                              Pre-Service Teacher Education Program (Pre-STEP)       Current
Development
American Institutes for       Links to Learning—Education Support to Pakistan (Ed-
                                                                                     Current
Research                      LINKS)
Rafi Peer Theatre             Children's Global Network—interactive teaching and
                                                                                     Current
Workshop                      learning television program
Academy for Educational       Higher Education Commission—Financial Aid
                                                                                     Current
Development                   Development Program
American University           Collaborative capacity building for human rights and
                                                                                     Current
Washington College of Law     gender
Government of Pakistan        Budget support to Higher Education Commission          Current; funds disbursed

Government of Pakistan        Fulbright scholarships (through DOS)                   Current
Higher Education
                              Merit and Needs-Based Scholarships Program             Current
Commission
ABT Associates                Pakistan Safe Drinking Water and Hygiene Project       Current


                                                                                                          19
    Implementing Partner                      Program Description                               Status
JSI Research and Training
                             Pakistan Initiative for Mothers and Newborns             Current
Institute
Population Council           Family Advancement for Life and Health Program           Current
Contraceptive Commodities    Contraceptive commodities for the Ministries of Health
                                                                                      Current
Procurement                  and Population Welfare

John Snow, Inc.              Contraceptive logistic support                           Current
UNICEF                       Polio eradication initiative                             Current
World Health Organization    Polio eradication initiative                             Current
KNCV Tuberculosis
                             Tuberculosis Control Assistance Program                  Current
Foundation
                             Involvement of religious leaders in health and
Pathfinder International                                                              Current
                             development, extending service delivery
Centers for Disease          Pakistan Field Epidemiology and Laboratory Training
                                                                                      Current
Control and Prevention       Program

Health Services Academy of   Developing and strengthening institutional capacity in
                                                                                      Current
Pakistan                     public health training and research

Save the Children            Improve children’s health in FATA                        Current
Government of Pakistan
Ministries, local            Universities and teaching hospitals                      Designing
organizations
                             Balochistan education sector—upgrading primary to
Government of Pakistan                                                                Negotiating
                             middle schools
National Institute of
Population Studies           Demographic and Health Survey                            Negotiating
(Pakistan)
                             Maternal and child health, family planning, and
Government of Pakistan                                                                Negotiating
                             immunizations
Pakistani organization       Health Monitoring Implementation Program                 Negotiating
Government of Pakistan       Workforce development                                    Designing
Government of Pakistan       Disease surveillance                                     Designing

Source: USAID/Pakistan

Although USAID did not provide indicators and associated targets to be used in measuring progress for
its education programs, USAID identified the following indicators (with FY 2010 targets and, as available,
quarterly results) for monitoring and evaluation in its health programs:

•     Number of couple years of protection (CYP) through the distribution of contraceptive commodities
      (target: 5 million CYP; result: 800,000 CYP distributed during the quarter).

•     Number of individuals who received an oral polio vaccine according to national standards (target
      and result: no data).

                                                                                                         20
•   Number of people trained in maternal health and nutrition through U.S. Government-assisted
    programs (target: 2,500 trainees; result: 77 people trained this quarter).

•   Number of people with access to improved drinking water supply as a result of U.S. Government
    assistance (target and result: no data).

•   Number of health care providers trained in public health through U.S. Government assistance
    (target: no data; result: 51 people trained this quarter).

USAID reported progress on its health projects and noted health indicators (nationwide statistics) are
improving, albeit slowly because of the limited size and geographic area covered by the health portfolio.
Programs are designed through intensive discussions with government counterparts to ensure that their
priorities are reflected in the programs. Additionally, USAID responded rapidly to the flood disaster by
quickly mobilizing resources and services.

Despite the aforementioned progress of its health programs, USAID reported a number of problems
that affect program implementation:

•   The Government of Pakistan lacks policy and planning coordination. Government mechanisms are
    slow, inefficient, and lack accountability. Further, the government does not have an approved health
    policy document to guide and prioritize government and donor response.

•   Drastic cuts in the Government’s Public Sector Development Program funds have reduced health
    service delivery.

•   Constitutionally, responsibility for water and sanitation services rests with the provinces, but they
    have not issued ordinances regarding these services. With numerous government actors operating
    in this sector, challenges arise related to communication, coordination, and competition for funding.

•   Donor coordination needs to be strengthened.

In addition to the above challenges for health programs, USAID identified the following problems that
have hampered the implementation of its education programs:

•   Links to Learning—Education Support to Pakistan (Ed-LINKS) is working in 11 districts in
    Balochistan, 11 districts in Sindh, six agencies in FATA, and six agencies in Malakand region. Because
    of the flooding, Ed-links has faced several problems in performing its planned activities in schools in
    Sindh, Khyber Pakhtunkhwa, Malakand, and Balochistan. Several Ed-LINKS-supported schools in
    Sindh and many in Balochistan have been partially damaged, with some schools inaccessible to Ed-
    Links teams. As a result, activities are on hold.

•   The Pre-Service Teacher Education Program (Pre-STEP) is a national initiative to revamp teachers’
    professional development in Pakistan. Previously, similar activities have been limited to short-term
    teacher training. However, given the complex nature of this national program and nonexistent

                                                                                                        21
    policy framework, several activities have faced delays. Also, the project faced significant
    management challenges when the chief of party and the deputy chief of party for the project were
    replaced.

•   Pakistani implementing partners are not well aware of U.S. Government policies and procedures, a
    factor that has delayed project implementation.

USDA’s programming in this category consists of the Food for Education Program, which supports
increased access to and quality of education and health services. To implement the program, USDA
awarded Land O’Lakes and the World Food Programme grants totaling an estimated $15.8 million.
Under these two grants, USDA will supply an estimated 6,540 metric tons of commodities to feed
schoolchildren and an estimated $5.9 million to implement rehabilitation projects and capacity-building
measures for schools. USDA signed a Food for Education grant agreement with Land O’Lakes in early
September 2010, and Land O’Lakes has begun implementation.

PAS has two programs that contribute to increased access to and quality of education services. In
FY 2010, PAS implemented a $30 million academic and professional exchange program to provide
enhanced educational and professional skills, leadership training, and connections with the United States
for up to 2,000 Pakistanis over a 2.5-year period. Exchanges range from short-term (3-week) visits
through the International Visitor Leadership Program to full academic degree programs. The FY 2010
investments resulted in nearly 2,000 exchanges between the United States and Pakistan, along with
nearly 5,000 participants in English language programs and 250 participants in teacher training programs
in Pakistan. PAS plans to expand the exchange program in FY 2011 and expects the number of
exchange grantees to exceed 2,500 over the next year. PAS has designated $10 million for program
implementation in FY 2011.

Also, in FY 2010, PAS began a $19.5 million Fulbright exchange program which over a period of years is
designed to increase substantially the number of faculty with master’s degrees and doctorates at
Pakistani colleges and universities. PAS has dedicated another $19.5 million in USAID funds to continue
the Fulbright program in FY 2011.


Government Capacity Development: Improved National and
Local Governance

Programs in this category are intended to build the capacity at the national, provincial and local levels—
particularly in targeted vulnerable areas—to provide basic municipal services, promote civil society
advocacy and oversight, improve the administration and conduct of elections, enhance parliamentary
function and oversight of the executive, improve the responsiveness of political parties, promote greater
gender equity, and strengthen systems for accountability and transparency in public expenditures.
USAID, USDA, and the U.S. Embassy’s PAS have current and planned programs to strengthen
government capacity and improve governance.




                                                                                                       22
USAID has 32 programs under way to improve government capacity at the national and local levels,
including 10 programs that began during the quarter. USAID’s new programs support improvements in
governance through the establishment of an antifraud hotline and assistance with developing an energy
plan and energy and economic policy. At the provincial and local levels, USAID programs provide
assistance to improve municipal services and build capacity in institutions such as the FATA Secretariat.

USAID is planning six additional programs to improve national and local governance. These programs
include a parliamentary strengthening and a civil society support program. Table 6 shows the status of
programs under way and planned.

           Table 6. USAID’s Programs to Improve National and Local Governance
                                as of September 30, 2010

    Implementing Partner                          Program Description                             Status

Transparency International/Pakistan   Antifraud hotline                                 Current; new
Pakistan Election Commission;
International Foundation for          Election Support Program                          Current; new
Electoral Systems
Government of Khyber
                                      Enhancing Malakand government capacity            Current; new
Pakhtunkhwa
National Electric Power Regulatory    Supported cost of service, benchmarking, tariff
                                                                                        Current; new
Authority                             and accounting
                                      Service study, regulatory accounting, benchmark
To be determined                      analysis for the National Electric Power          Current; new
                                      Regulatory Authority
                                      Supported energy component of the 5-year
Planning Commission Energy Wing                                                         Current; new
                                      development plan
Ministry of Water and Power           Supported repair and maintenance training for
                                                                                        Current; new
Thermal Plants                        all GOP thermal plant operators
                                      Supported repair and maintenance training of
WAPDA                                                                                   Current; new
                                      staff at hydropower plants
                                      Economic policy support to the Pakistani
Competitiveness Support Fund                                                            Current; new
                                      Government
                                      Improve customs procedures and Pakistani
Deloitte Consulting, LLC                                                                Current; new 
                                      Commercial Service 
                                      Improve exports and trade at selected border
Deloitte Consulting, LLC                                                                Current
                                      areas with Afghanistan
Development Associates
                                      Strengthen capacity of the FATA Secretariat       Current
International
                                      Bajaur Urban Centers (urban planning and
FATA Secretariat                                                                        Current
                                      systems for municipal government)
Advanced Engineering Associates
                                      Energy policy and capacity building               Current
International
                                      Power Distribution Improvement Program to
                                      improve management capacity, financial systems,
Pakistan Electric Power Company                                                         Current
                                      billings, and collections of distribution
                                      companies


                                                                                                           23
     Implementing Partner                           Program Description                              Status
U.S. Department of Commerce             Work with the Ministry of Petroleum and
Commercial Law Development              Natural Resources to improve regulatory            Current
Program                                 environment for natural gas
                                        Work with the Ministry of Petroleum and
U.S. Geological Survey                  Natural Resources to assess conventional and       Current
                                        unconventional gas reserves
                                        Assist GOP with the design, management and
To be determined (local firm)                                                              Current
                                        monitoring of energy sector projects
Pakistan Institute of Development
                                        Agriculture and water policy                       Current
Economics
Rural Development Fund                  Dairy Development Initiative                       Current

Agribusiness Support Fund               Agribusiness partnerships                          Current
                                        Assistance to Balochistan to improve livelihoods
Ministry of Food and Agriculture                                                           Current
                                        and food security
                                        Improve production and marketing of
U.S. Department of Agriculture          commodities, enhance GOP research, help            Current
                                        eradicate agricultural diseases
Aurat Foundation                        Gender equity grants                               Current
                                        Small grants program for unsolicited proposals
National Rural Support Program                                                             Current
                                        and Chief of Mission Fund
Provincial Relief, Rehabilitation and
                                        Accelerated capacity building                      Current
Settlement Authority
Development Alternatives, Inc.          Legislative Strengthening Program (Phase II)       Current

To be determined                        Pakistan Economic Reform Program                   Current
                                        Tax, debt, and banking regulation advisors to
U.S. Department of the Treasury                                                            Current
                                        the GOP
Ministry of Finance and contracted
                                        Economic policy support to GOP                     Current
firm
U.S. Department of Commerce             Commercial Law Development Program                 Current

To be determined                        Political party development                        Current
Pakistani National and Provincial
                                        Parliamentary strengthening                        Preaward survey
Parliaments
Pakistani NGO                           Civil Society Support Program                      Preaward survey
State Bank of Pakistan; Kashf           Access to finance program for small and
                                                                                           Negotiating
Microfinance Bank                       medium enterprises
                                                                                           Design; under
Provincial Government of Khyber
                                        Swat and Buner Agricultural Progress Program       consideration for flood
Pakhtunkhwa
                                                                                           recovery assistance
U.S. Department of State (DOS)          Media and strategic communications                 Designing




                                                                                                                     24
     Implementing Partner                       Program Description                          Status

                                    Judicial peer-to-peer exchange (participant
Pakistan Judiciary                                                                   Designing
                                    training)
Source: USAID/Pakistan


USAID identified the following performance indicators (some with FY 2010 targets and quarterly
results) for monitoring and evaluation of its programs for improved national and local governance:

•   Number of energy agencies, regulatory bodies, utilities, and civil society organizations undertaking
    capacity strengthening (target: no data; result: 17 during the quarter).

•   Number of policy reforms, procedures, and regulations drafted for areas of tariff rationalization,
    utility cost of service, and renewable energy policy (target: no data; result: 15 during the quarter).

•   Progress on economic policy reform and implementation index (target and result: no data).

•   Number of Pakistani foreign commercial service officers trained (target and result: no data).

•   Number of auditors trained (target and result: no data).

•   Percentage of citizens that express confidence in institutions and processes related to municipal
    services (target and result: no data).

In addition, USAID provided the following examples of success in its government capacity development
programs:

•   The Election Commission of Pakistan launched its first-ever 5-year strategic plan with USAID
    technical assistance. This unique initiative defined the commission’s priorities and objectives to
    modernize the institution into a transparent and accountable electoral manager.

•   Government counterparts responded positively in initial negotiations to working directly with
    USAID through implementation letters.

•   Despite the rain and flooding, the construction of the Parliamentary Institute building remains on
    track.

USAID also reported challenges to implementing its programs for improved governance:

•   Hiring sufficient staff in a timely manner, both in Islamabad and the provincial offices, remains a
    challenge as USAID’s program portfolio is growing rapidly.

•   Access to certain parts of the country remains a challenge, exacerbated by the flooding.

•   Institutional capacity of government entities is uneven.

                                                                                                             25
•   Securing government buy-in in FATA is a key challenge for any program focused on improving
    governance. The assumption that Pakistani Government entities coordinate among themselves
    does not hold. Gaps appear frequently, for example, between the executive and judiciary, in terms
    of coordinating actions, setting policy, and sharing information.

Under this category, USDA manages three types of programs to build Pakistani institutional capacity in
the agricultural sector:

•   Endowments are used to support agricultural research and development activities in accordance
    with Pakistan’s long-term development goals and to promote scientific cooperation between
    Pakistani and U.S. agricultural scientists. Since 2000, USDA has established six endowments totaling
    $55 million.

•   Technical assistance exchange programs are used to develop linkages between Pakistani scientists
    and their counterparts in the United States. USDA plans to expand the number and quality of
    exchanges between Pakistani and U.S. scientists to improve the capacity of Pakistan’s agricultural
    research system.

•   The Trilateral (Afghanistan-Pakistan-United States) Secretariat on Agriculture established three
    working groups: Food Security and Applied Research, Water Management, and Trade Corridors.
    On September 27-30, 2010, members of the Agricultural Trilateral met in Istanbul, Turkey, to
    discuss the progress of USAID agricultural programs and the USDA Agriculture Investment Strategy
    since the June 15, 2010, meeting in Islamabad. Participants agreed on a draft framework of
    benchmarks for the Agriculture Working Group to use during the Strategic Dialogue meetings
    scheduled for October 2010 in Washington, D.C.

PAS contributes to government capacity building through its communications programs. PAS reported
on two programs in this area of assistance: radio transmitter towers and a government exchange
program.

The $7 million radio transmitter tower program, approved for implementation by Pakistan Broadcasting
and the Ministry of Information, will enhance the Pakistani Government’s ability to be heard throughout
the Khyber Pakhtunkhwa and FATA. The radio transmitters in the border regions are intended to
reach areas of Pakistan that are affected by extremist conflict, strengthening the moderate voice of the
government. The contract for the radio transmitter towers was awarded and construction is under
way. PAS anticipates providing equipment and training to the Pakistan Electronic Media Regulatory
Authority and training to Government of Pakistan spokespersons.

In addition, national and local elected officials and government employees will be invited to visit the
United States for short-term visits or internships to meet with counterparts as part of an exchange
program that strengthens partnerships and provides ideas for Pakistan based on American experiences.




                                                                                                     26
Government Capacity Development: Improved Security and Legal
Institutions

Like capacity development in national and local governance, this category targets areas prone to conflict
and those with a weak government presence. Assistance focuses on improving policing and expediting
the disposal of legal cases through the court system.

USAID and the U.S. Embassy’s Narcotics Affairs Section (NAS), Regional Security Office (RSO), and PAS
support assistance programs to improve security and legal institutions in Pakistan.

USAID currently has one legal institution program that focuses on court efficiency, specifically on
improving court administration. USAID’s program is being implemented by Pakistan’s provincial high
courts.

NAS does most of its programming under this category. As previously reported, NAS, in coordination
with other U.S. law enforcement agencies in Pakistan, manages five programs that support improved
security and legal institutions. These programs address counternarcotics and crop control, border
security, roads and bridges in FATA and Khyber Pakhtunkhwa, police and prosecutor training, and
support for the Ministry of Interior’s Air Wing. According to NAS, all of its projects are implemented in
partnership with the Government of Pakistan, and infrastructure projects use Pakistani contracting
mechanisms.

In September 2010, NAS and the Government of Pakistan signed a letter of agreement authorizing
expenditure of $125.6 million in U.S. Government assistance funds for FY 2010. NAS plans to secure
another letter of agreement with the Pakistani Government that will cover $40 million.

To measure the progress of its programs, NAS identified lower-level performance indicators (input and
output indicators) and higher-level performance indicators (outcome indicators) that will be used:

•   Number of hours flown by the Air Wing under the aviation program.

•   Number of kilometers of road constructed and percentage of other infrastructure projects
    completed under the infrastructure program.

•   Number of law enforcement officials trained, number of police facilities reconstructed or
    rehabilitated, and amount of equipment delivered under the civilian law enforcement reform
    program.

•   Number of prosecutors trained under the rule of law program.

•   Reduction in the number of hectares of poppy grown as a result of the counternarcotics program.

NAS reported the following examples of progress:

                                                                                                      27
•   1,552 hours flown by the Air Wing under the aviation program. During the reporting period,
    missions of note included flood relief in Hyderabad, Peshawar, Multan, Sukkar, Karachi, and several
    other locations, and transported more than 200,000 pounds of rations, medical supplies, and several
    hundred affected personnel.

•   $4.76 million worth of commodities—surveillance and communication equipment, bulletproof vests,
    armored personnel carriers—were delivered to the Khyber Pakhtunkhwa Elite Force.

•   6 kilometers of roads were constructed in or near the poppy-growing areas of Mohmand, Bajaur,
    Khyber, and Kala Dhaka.

•   369 Khyber Pakhtunkhwa Elite Force and police commanders completed training sponsored by DOS
    International Narcotics and Law Enforcement (INL) in human rights and the use of force and in
    civilian police leadership.

•   $218,000 was provided to an NGO dedicated to reducing demand for drugs to conduct faith-based
    drug intervention programs in FATA and Khyber Pakhtunkhwa.

NAS reported that although the program had achieved some successes, new and old challenges have
slowed program efforts. Because the unprecedented floods damaged or destroyed a large number of
police stations, NAS ordered commodities to help reconstitute the law enforcement capability in
Khyber Pakhtunkhwa. Also, NAS is working with the U.N. Office on Drugs and Crime on a plan to
repair and replace flood-damaged law enforcement infrastructure. Independent of the floods, security
problems, including the targeting of police trainers, persist. Also, slow visa processing, issuance of visas
(for example, 30-day and single-entry) that are not appropriate for the trainers’ duties, and tightly
controlled and often denied clearances for access to the Air Wing compound continue to delay
implementation.

For its part, the RSO at the U.S. Embassy in Islamabad reported on antiterrorism assistance funded by
the Nonproliferation, Antiterrorism, Demining, and Related account. The Office of Antiterrorism
Assistance has provided antiterrorism assistance to the Government of Pakistan since 1983.
Antiterrorism assistance covers the full range of tactical and investigative courses and support to
Pakistani federal and provincial law enforcement agencies, especially those operating in Khyber
Pakhtunkhwa and Balochistan.

According to the RSO, the goal is to assist Pakistani law enforcement agencies at the federal and
provincial levels in developing the institutional capacity to prevent, interdict, and investigate terrorist
activities. Program objectives for FY 2010, as identified by the RSO, are to:

•   Provide tactical training to law enforcement agencies operating in Khyber Pakhtunkhwa, Balochistan,
    and other provinces that will allow them to counter terrorist attacks.



                                                                                                         28
•   Provide advanced tactical training to augment and enhance the abilities of tactical units operating in
    conflict zones throughout Pakistan, with emphasis on Khyber Pakhtunkhwa.

•   Provide investigative and case management training to provincial and federal law enforcement
    agencies to increase their ability to conduct both proactive and after-the-fact investigations leading
    to the arrest, prosecution, and successful conviction of terrorist organizations operating in Pakistan.

RSO reported that antiterrorism assistance training was postponed for 6 months because of unspecified
terrorist threats against its training academy and because the Government of Pakistan closed an interim
training site. Training for the Pakistani police resumed in June 2010, and the relocation of the
antiterrorism assistance training facility to a secure environment was completed in September 2010.
The antiterrorism assistance program in Pakistan is proceeding with a plan to provide focused tactical,
technical, and investigative training to Pakistani Government law enforcement agencies at the provincial
and federal levels.

Rounding out the types of assistance under this category, PAS manages exchange programs that include
short-term visits and internships for Pakistani police officials, prosecutors, and lawyers to meet and
work with their counterparts in the United States to strengthen partnerships and exchange ideas. PAS
also continues to support India-Pakistan exchange programs that help promote India-Pakistan dialogue;
$2 million will be used in exchanges for young political and student leaders, and journalists. A grant is
being negotiated with the American Conference of Young Political Leaders to expand its exchanges in
India and Pakistan, and a possible linkage between PAIMAN, a Pakistan-based NGO, and the Rai
Foundation in New Delhi is being explored.

Assistance to Pakistani Institutions

The Enhanced Partnership with Pakistan Act of 2009 encourages the use of Pakistani firms and NGOs,
as appropriate, to implement the assistance programs authorized under Title I of the act
(Section 101(c)(3)). As noted in last quarter’s report, the purpose of this shift is to:

•   Align programs with locally identified priorities.

•   Build Pakistanis’ sense of ownership of programs.

•   Build Pakistani institutional and leadership capacity for better fiscal management.

•   Promote decentralization to more actively engage provincial and local partners and beneficiaries.




                                                                                                        29
•      Deliver assistance on-budget 9 to promote transparency, harmonization, and better budget planning
       by the Government of Pakistan.

•      Reduce costs.

USAID’s Office of Financial Management performs preaward assessments of all prospective partner
organizations. The assessments examine organizational and management structure, accounting, financial
management systems, internal controls, technical capabilities, and quality assurance capabilities, as well as
the organizations’ policies, procedures, and practices for effective and efficient management of
USAID/Pakistan resources. To date, USAID has completed 27 preaward assessments, including 3 this
quarter on the following organizations:

1. Rural Development Foundation
2. Aurat Foundation
3. Lahore University of Management Sciences

USAID reported that it had 63 preaward assessments under way for Pakistani organizations, including
government departments and project management units.  

The first programs to be implemented by Pakistani organizations passed the preaward assessment in the
areas of governance and health.       Approximately 80 percent of programs sponsored by USAID’s
Democracy and Governance Office will be implemented through Pakistani organizations. USAID has
also designed most of its new health programs to be implemented through Government of Pakistan
institutions and Pakistani NGOs. In addition, it will provide funding to support government programs on
maternal and child health, family planning, and immunization and to support the establishment of a
disease surveillance system within the government.

According to USAID, as of September 30, 2010, it had made 61 awards totaling nearly $1.268 billion to
Pakistani institutions (Table 7). USAID reported making 28 awards totaling approximately $392.4
million during the reporting period.     Awards made by USAID fall into one of the following four
categories: budget support (cash transfers), direct funding for federal government projects, direct
funding for provincial government projects, and awards to Pakistani NGOs.




                                                            
9
  Delivering U.S. assistance through Pakistan’s own budgetary, spending, and accounting systems as much as
possible will help the Government of Pakistan meet the fiscal targets required by the International Monetary Fund
and raise Pakistanis’ awareness of where U.S. funds are going and how they harmonize with resources from the
Government of Pakistan and other donors. On-budget assistance should also help to reduce disruptions in
implementation by enabling federal and provincial governments to improve budget planning and cash-flow
management.

                                                                                                              30
             Table 7. Assistance to Pakistani Institutions as of September 30, 2010 

                                                                       Number of     Value
                                Type
                                                                        Awards        ($)
Budget Support* (Cash Transfers)                                           6       359,000,000

Higher Education Commission (July 2010)                                    1         45,000,000

Higher Education Commission (April 2010)                                   1         45,000,000

Housing Damage Assistance for Khyber Pakhtunkhwa and FATA                  1         65,000,000

Internally Displaced Persons in Khyber Pakhtunkhwa                         1         44,000,000

Benazir Income Support Program                                             1         85,000,000

Benazir Income Support Program                                             1         75,000,000

Direct Funding for Federal Government Projects                            11       489,621,000

High-Efficiency Irrigation Systems                                         1         50,000,000

South Waziristan Quick Impact Program (road, water, and electricity)       1         55,000,000
Malakand Quick Impact Program (schools, health, water and
                                                                           1         36,000,000
sanitation, government capacity)
Rehabilitation of Thermal Plant in Jamshorro                               1         18,360,000

Rehabilitation of Thermal Plant in Guddu                                   1         18,068,000

Rehabilitation of Thermal Plant in Muzaffargarh                            1         15,193,000

Tarbela Hydropower Plant Rehabilitation and Repair                         1         16,500,000

Irrigation Tube Well Efficiency Improvement Project                        1         18,500,000

Local Democratic Governance Municipal Services                             1        200,000,000

Distribution Companies Performance Improvement Program                     1         60,000,000

Health Services Academy (Ministry of Health)                               1          2,000,000

Direct Funding for Provincial Government Programs                          3       235,900,000

Punjab Education Sector Grant                                              1         48,000,000

Balochistan Middle Schools (budget offset)                                 1         40,000,000

Southern Punjab Basic Education Program                                    1        147,900,000

Awards to Pakistani NGOs                                                  41       183,373,218

Balochistan Water Survey Project                                           1           181,559

South Waziristan Agency M&E Contract                                       1          3,434,388



                                                                                                  31
                                                                          Number of                 Value
                                   Type
                                                                           Awards                    ($)
USAID/OTI M&E Services                                                           1                    315,987

Antifraud Hotline Program                                                        1                  3,000,000
Emergency Relief Items to Communities Affected by Floods in
                                                                                 1                  2,299,998
Pakistan
Gender Equity Program                                                            1                 40,000,000

Relief to Flood-Affected Communities in Punjab and Sindh                         1                  2,699,543

Small Grants and Ambassador’s Fund Program                                       1                 49,988,052

Flood Response Program                                                           1                  6,395,093
Monitoring and Evaluation for Small-Scale Infrastructure of FATA and
                                                                                 1                  1,224,351
Khyber Pakhtunkhwa Projects—Malakand (task order)
Audit and Financial Management Services (blanket purchase
                                                                               15                  15,000,000
agreement)
USAID Recruitment Services (blanket purchase agreement)                          4                  4,000,000

Children’s Television                                                            1                 20,000,000

Parliamentary Institute Building                                                 1                  9,300,000

Bolton Market Business Revitalization Program                                    1                 13,000,000

Pakistan Anticorruption Program                                                  1                    400,000
Audit, Financial Review, and Related Financial Management Services
                                                                                 5                  2,500,000
(basic ordering agreement)
Strengthen Capacity of the FATA Secretariat                                      1                    817,260
Accelerated Capacity Building of Provincial Relief, Rehabilitation and
                                                                                 1                    816,987
Settlement Authority
Pakistan Broadcasting Corporation                                                1                  8,000,000

Total                                                                          61            1,267,894,218

* For budget support, U.S. assistance funds are comingled with other budgetary resources available to the Pakistani
Government, and accounting for how the U.S. funds have been used is not possible. For project assistance, U.S.
funds are normally segregated in separate bank accounts, and the Pakistani Government is required to keep books
and records that show how assistance funds are spent.
Source: USAID/Pakistan




                                                                                                                32
Risks and Mitigation Strategies
U.S. Government agencies and oversight entities identified risks that could jeopardize the U.S.
Government’s assistance program in Pakistan. From July 1 through September 30, 2010, one new and
significant risk to the effectiveness of the assistance program has emerged from the floods that have
submerged one-fifth of the country.

With over 20 million Pakistanis affected by the flooding, the Government of Pakistan faces increased
instability if it does not deal swiftly and effectively with a growing list of challenges. Millions of displaced
people need emergency shelter, food insecurity persists as more than 30 percent of Pakistan’s
agricultural land was devastated by the flooding, and malnutrition and disease threaten an already
vulnerable population. The disillusionment of the affected population with the current civilian
government could further fuel instability and conflict. Opposition leaders are calling for midterm
elections, and local and municipal elections are expected within 12 months. Significant and sustained
instability could undermine recovery efforts supported by the assistance program.

In addition to the flood-related risk described above, risks identified in previous quarterly reports on the
civilian assistance program are summarized below:

•      Terrorist threats in the United States. A successful terrorist attack originating in Pakistan but carried
       out on U.S. soil, such as the attempted bombing in Times Square, could damage the U.S.-Pakistan
       relationship. The heightened risk of such an attack was underscored by Administration officials in
       their testimony before the Senate Committee on Homeland Security and Governmental Affairs. 10

•      Political risks. Any softening of support for civilian rule and unambiguous opposition to all terrorist
       groups operating in Pakistan could endanger the assistance program and the relationship between
       the United States and Pakistan.

•      Resistance to change. Entrenched interests may resist policy reforms needed to transform the
       economy. According to USAID, if fundamental reforms are not implemented, assistance from the
       United States and other donors will have stabilized the economy only temporarily.

•      Security risks. Security concerns continue to reduce the ability of U.S. Government personnel to
       conduct direct monitoring and evaluation in conflict-affected areas, particularly Peshawar, FATA, and
       Khyber Pakhtunkhwa.

•      Direct budget support. U.S. assistance funds to the Government of Pakistan in the form of budget
       support are comingled with other resources available to Pakistan. Therefore, financial management
       and reporting challenges continue.



                                                            
10
      “Nine Years After 9/11: Confronting the Terrorist Threat to the Homeland,” September 22, 2010.  

                                                                                                             33
•   Limited institutional capacity. Limited institutional capacity—especially in the FATA, Khyber
    Pakhtunkhwa, and Balochistan—creates a risk that resources might be lost through inefficiency,
    theft, or general lack of capacity to handle large amounts of funding.

USAID has developed strategies to mitigate flood-related risks such as program implementation delays
and an uncertain political climate. Given the damage to livelihoods and agricultural infrastructure, USAID
is coordinating with the Government of Pakistan and other donors to ensure that U.S. Government
resources are allocated strategically toward activities with the highest and most visible impact. USAID
has added elements of flood mitigation to the surface water management programs for Balochistan and
Gomal Zam Dam. The Agency is addressing this political uncertainty heightened by the Government of
Pakistan’s slow response to the flooding by building institutional relationships at the national, provincial,
and local levels and by reaching out to build a consensus around USAID’s democracy and governance
programs. For example, USAID has established multiparty steering committees in the national and
provincial assemblies to provide oversight and guidance to future parliamentary strengthening activities.

As USAID increasingly works through Pakistani institutions, it has also developed a number of mitigation
strategies to prevent the loss of funds through inefficiency, theft, or general lack of capacity of Pakistan’s
local governments and civil society to handle large amounts of funding. USAID’s strategies work directly
with Pakistani public and private partners to enhance activity management, oversight, and evaluation.
For example, USAID’s Office of Financial Management manages contracts to strengthen the Auditor
General of Pakistan and build the audit and financial accounting capacity of local civil society
organizations and private sector firms. Also, preaward assessments assist in indentifying financial,
administrative, and procurement weaknesses; mitigating them by including compliance activities in the
agreements; and closely monitoring the implementing partner’s progress. USAID’s Office of Health uses
preaward assessments along with technical advisors stationed in Pakistani institutions to improve activity
management. Similarly, USAID’s Office of Democracy and Governance expects to establish project
management units in each government partner institution to serve a dedicated management function for
USAID projects. Generally, these units will be staffed by both government-appointed officials from the
recipient institution and outside consultants hired by USAID.

Security concerns and limited access to USAID projects in insecure areas—while an on-going
challenge—are being addressed with the expansion of USAID’s regional offices in Peshawar, Lahore, and
Karachi and the development of a monitoring and evaluation program. USAID/Pakistan is designing a
missionwide monitoring and evaluation contract and expects to award it in December 2010. The
contract will help USAID’s technical teams monitor ongoing projects and conduct impact evaluations.

In addition to these USAID strategies, USAID OIG has taken steps to ensure that U.S. Government
funds are protected against waste and theft:

•   Establishing field offices in Pakistan for the USAID and DOS OIGs. As of September 30, 2010, USAID
    OIG had nine permanent staff in Islamabad (seven U.S. direct hires and two Foreign Service national
    employees), supplemented by staff on temporary duty.




                                                                                                           34
•      Conducting risk assessments of awards to U.S.-based entities working in Pakistan. As of September 30,
       2010, USAID OIG had conducted assessments on 18 awards to prioritize financial audits of U.S.
       entities, for-profit and nonprofit, operating in Pakistan. Of the 18 awards, 5 are considered high risk
       and will be audited.

•      Expanding the use of independent Pakistani public accounting firms to conduct financial audits of funds
       provided to Pakistani NGOs. As of September 30, 2010, USAID OIG had a roster of 23 eligible audit
       firms in Pakistan to call on. From the passage of the Enhanced Partnership with Pakistan Act on
       October 15, 2009, until September 30, 2010, USAID OIG added 11 audit firms to its list of eligible
       audit firms in Pakistan.

•      Providing training to Pakistani public accounting firms and to the Office of the Auditor General. The training
       covers standards and requirements applicable to financial audits of U.S. Government funds. In April
       2010, USAID OIG provided training to 21 auditors from the Office of the Auditor General. USAID
       OIG was planning to provide training for public accounting firms and Pakistani NGOs in
       October 2010.

•      Helping the Office of the Auditor General conduct financial audits. OIG will help the office conduct
       financial audits of funds provided to Pakistani Government entities.

•      Working with Pakistan’s National Accountability Bureau (NAB). 11 USAID OIG established a working
       relationship with NAB in early 2010. Since February, USAID OIG’s Office of Investigations has
       referred three investigations to NAB—two cases in Khyber Pakhtunkhwa and one case in Islamabad.
       OIG/Investigations and NAB share information and meet frequently to discuss progress in these
       cases. The cases under investigation include allegations of procurement fraud and bribery or
       kickback schemes associated with USAID-funded programs. During this quarter, a joint investigation
       between OIG/Investigations and NAB revealed evidence of fraud related to the procurement by a
       USAID implementing partner of household kits for internally displaced persons, resulting in the
       termination of a $150 million livelihood development program. (For details on the results of this
       investigation, see page 40.)

•      Collaborating with USAID/Pakistan to establish a fraud hotline in Pakistan. On September 22, 2010,
       USAID/Pakistan signed a 5-year, $3 million cooperative agreement with Transparency International
       Pakistan (TI-P) to implement a fraud hotline and education program aimed to protect USAID funds
       in Pakistan. The fraud hotline and education program will be managed by OIG in cooperation with
       USAID/Pakistan. The hotline will allow individuals to report allegations of fraud or corruption
       related to USAID-funded programs by Internet, e-mail, telephone, fax, postal mail, or in person. In
       addition, the hotline will be staffed by personnel fluent in key regional languages, ensuring that
       individuals who do not speak English are able to make reports. As part of the project, TI-P will
       work closely with OIG to publicize the hotline across Pakistan as well as to provide targeted fraud
       prevention training sessions to USAID implementing partners, program recipients, and Government
       of Pakistan agencies utilizing USAID funds. The agreement was formally announced by USAID
                                                            
11NAB is the primary law enforcement agency in Pakistan responsible for investigating white-collar crime and public corruption,
and it is Pakistan’s only law enforcement agency authorized to conduct investigations in FATA.

                                                                                                                            35
    Mission Director Robert Wilson and Pakistani Finance Minister Hafiz Sheikh at a national forum
    on transparency in flood relief funding on September 23, 2010. The announcement was reported
    widely in print and electronic media throughout Pakistan and South Asia.

•   Providing fraud awareness briefings and expanding investigatory coverage. To date, USAID OIG
    personnel have held numerous meetings with USAID/Pakistan contracting personnel, coordinated
    with the USAID regional legal advisor, and undertaken other activities to ensure that personnel
    managing USAID projects know how to report issues related to fraud and corruption.

•   Coordinating audits and investigations with other U.S. agencies. USAID OIG works with other OIGs,
    GAO, and law enforcement agencies, including the Federal Bureau of Investigation’s International
    Corruption Unit, the National Procurement Task Force, and the U.S. Embassy’s Legal Attaché
    Office. USAID OIG continued to receive significant investigative assistance from the FBI during this
    quarter.




                                                                                                     36
Staffing
The U.S. Mission in Pakistan—USAID and embassy components 12 —is increasing staffing levels in
Islamabad and at regional offices in Lahore and Karachi. As shown in Table 8, USAID reported a total of
210 staff (50 U.S. direct-hires and 160 others) as of September 30, 2010. Since the last quarterly report,
the mission has increased its staff by 47 positions.

Although USAID/Pakistan increased its staffing by 47 positions over the past 3 months, it did not meet
its September 30, 2010, target of 245 staff on board. USAID/Pakistan was understaffed by 35 positions.

                              Table 8. USAID Staffing in Pakistan as of September 30, 2010

                                                                                                         Difference from
     Category                                     Islamabad        Peshawar   Lahore   Karachi   Total
                                                                                                          June 30, 2010

     U.S. direct hire                                      45          1        3         1        50         +12
     U.S. staff from other                                     2       0        0         0         2          0
     departments and
     agencies*
     U.S. personal services                                16          0        0         0        16          -1
     contractors
     Third-country nationals                                   9       0        0         0         9          +1


     Foreign Service nationals                             94         16        4         5       119         +23
     (Pakistani staff)

     Eligible family members                                   3       0        0         1         4          +2
     Long-term temporary                                   10          0        0         0        10         +10
     duty staff†
     Total Staff                                         179          17        7         7       210         +47
     Staff Target                                                                                 245
     Staff Shortfall                                                                               35

     * The two staff shown are detailed from the U.S. Department of Agriculture.
     † USAID/Pakistan reported that, effective September 30, 2010, long-term temporary duty staff (defined as being
     in Pakistan for a year) counted toward the total number of USAID/Pakistan positions.




                                                            
12
   The U.S. Embassy’s Narcotics Affairs Section reported that it had 84 staff and contractors on board as of
September 30, 2010, including 4 U.S. direct hires. The Embassy’s Public Affairs Section reported that it had 19
direct hires on board as of that date.  

                                                                                                                       37
Oversight Status
USAID Office of Inspector General

USAID OIG oversees foreign assistance programs administered by USAID, the United States African
Development Foundation, the Inter-American Foundation, and the Millennium Challenge Corporation.
USAID OIG has strengthened its focus on Pakistan since USAID reopened its Pakistan mission in 2002.
In recent years, OIG has covered a wide array of USAID programs in Pakistan, for relief and
stabilization, reconstruction, sustainable development, education, and health care. USAID OIG’s
oversight activities include performance audits, financial audits, and investigations.

Work Completed Since July 1, 2010

From July 1 through September 30, 2010, USAID OIG completed one performance audit, one financial
audit, and one financial review:

•   Audit of USAID/Pakistan’s Family Advancement for Life and Health Program (Audit
    Report No. 5-391-10-012-P, August 31, 2010). This audit determined that USAID/Pakistan’s
    Family Advancement for Life and Health Program was increasing demand for family planning services
    and improving these services. However, the audit also found that the required financial audits of
    three Pakistani organizations receiving $24.7 million to help implement the program had not been
    conducted, leaving the accountability for those funds in question.         Therefore, the report
    recommends that USAID/Pakistan require its U.S.-based implementing partner to develop a plan of
    action for completing the financial audits.

•   Financial Audit of the Pakistan Competitiveness Support Fund, USAID/Pakistan Grant
    Agreement No. 391-G-00-06-01073-00, Managed by the Competitiveness Support Fund,
    for the Period February 3, 2006, to June 30, 2009 (Audit Report No. G-391-10-001-R,
    August 4, 2010). The audit covered program costs of $5,628,150. The agreement was to
    improve the competitiveness of small and medium-sized Pakistani industries through technical
    assistance and a match-making grant facility. The auditors identified $355,471 in questioned costs
    and significant deficiencies in internal control. USAID OIG recommended that USAID/Pakistan
    determine the allowability of and recover, as appropriate, questioned costs of $355,471 and improve
    internal controls related to audit functions, salary increases, and access to the Web server.

•   Review of USAID/Pakistan’s Financial Systems and Data for the Fiscal Year Ending
    September 30, 2010. This review was performed as part of the OIG’s annual audit of USAID’s
    principal financial statements. The review sought to determine whether USAID/Pakistan’s financial
    systems and data exhibited material weaknesses that would adversely affect USAID's financial
    statements. The review did not disclose any such material weaknesses. However, OIG suggested
    that USAID/Pakistan's Office of Financial Management (1) continue to fill vacant positions, implement
    appropriate training for new staff, and conduct and document periodic internal control assessments

                                                                                                      38
    of accounting and financial management functions, (2) review all Intergovernmental Payment and
    Collection transactions for accuracy and verify that they are properly entered into Phoenix, USAID’s
    accounting system, (3) continue to follow up on all advances outstanding for more than 90 days, (4)
    review the unliquidated, inactive obligations and continue the process of deobligating the funds, and
    (5) research and resolve its monthly 1221 reconciling items, and reemphasize to staff the importance
    of clearing items in a timely manner.

Work Under Way for FY 2011

As of September 30, 2010, USAID OIG had three performance audits and six financial audits in process:

•   Audit of USAID/Pakistan’s Federally Administered Tribal Areas (FATA) Livelihood
    Development Program—Implemented by the Academy for Educational Development.
    FATA consists of semiautonomous areas along the border with Afghanistan, where the Pakistani
    Government has minimal control. These areas are frequently used by the Taliban for incursions into
    Afghanistan. Citizens there have less access to education, health care, clean water, and sanitation
    than do residents in other regions in Pakistan. The FATA Livelihood Development Program is a
    community-based program that aims to (1) create jobs, increase incomes, and teach employable
    skills, (2) revitalize community infrastructure and essential services, and (3) support established
    businesses and develop sustainable new enterprises while providing social and economic stability to
    counter the growing influence of extremist and terrorist groups in the regions. The audit is
    assessing the program’s effectiveness in improving livelihoods in upper FATA.

•   Audit of USAID/Pakistan’s FATA Livelihood Development Program—Implemented by
    CHF International. This audit is similar to the preceding one, but it covers the portion of the
    program that is implemented by CHF International in lower FATA.

•   Audit of USAID/Pakistan's Flood Relief Efforts to Deliver Food and Medical Supplies.
    As part of the relief efforts in response to the recent floods in Pakistan that affected over 20 million
    people in 74 districts, USAID/Pakistan obligated $5 million to two local NGOs—Pakistan Poverty
    Alleviation Fund and Rural Support Program Network—to procure and distribute $4.4 million in
    food and medical commodities to 82,261 households. The audit is determining whether
    USAID/Pakistan’s flood relief efforts are meeting the immediate needs of flood victims in Sindh,
    Punjab, and Khyber-Pakhtunkhwa.

•   Financial Audit of the Costs Incurred by Research Triangle Institute Under the
    Education Sector Reform Assistance Program’s School Enhancement Program
    Component, for the Period December 4, 2002, to September 30, 2007.

•   Financial Audit of USAID Funds Managed by the Ministry of Finance, Government of
    Pakistan, for the Education, Health, and Clean Drinking Water Budget Lines, for the
    Period June 15, 2007, to June 30, 2008, and for the Government of Pakistan Rural
    Landless Compensation Policy Budget Line, for the Period June 15, 2007, to
    December 31, 2009.



                                                                                                         39
•   Financial Audit of USAID Funds Managed by the Ministry of Economic Affairs and
    Statistics (Economic Affairs Division) Under the Cash Transfer Grant Agreement,
    Activity No. 391-AAG-012-IL-01, for Internally Displaced Persons, for the Period July 1,
    2009, to June 30, 2010.

•   Financial Audit of USAID Funds Managed by the Higher Education Commission Under
    the Merit and Needs-based Scholarship Project, for the Period July 2, 2004, to
    June 30, 2010.

•   Financial Audit of the USAID/Pakistan Trust Funds Composed of Operating Expenses,
    for the Fiscal Years Ended September 30, 2007, 2008, and 2009.

•   Financial Forensic Audit of the Academy for Educational Development for the Period
    April 30, 2008, to June 30, 2010.

In addition to these audit assignments, USAID OIG has eight open investigative cases. One case relating
to livelihood development programs in FATA had two significant developments during the period July 1-
September 30, 2010:

•   USAID Terminated a $150 Million Livelihood Development Program as a Result of
    Allegations of Fraud. USAID/Pakistan terminated a 5-year, $150 million livelihood development
    program after an ongoing OIG investigation revealed evidence of fraud related to the procurement
    by a USAID implementing partner of household kits for internally displaced persons. The joint
    investigation between OIG and NAB revealed evidence of collusion between vendors and staff of
    the implementing partner, resulting in overpayment for certain goods. The investigation also
    revealed the implementing partner had inappropriately hired relatives of the USAID agreement
    officer’s technical representative responsible for overseeing the program. As of September 30,
    2010, the implementing partner had returned $992,206 to USAID related to this investigation.

•   USAID Terminated a Personal Services Contractor for Misuse of Official Position. A
    USAID/Pakistan personal services contractor serving as the agreement officer’s technical
    representative for two livelihood development programs totaling $300 million was terminated after
    an OIG investigation revealed he misused his official position for the personal gain of relatives and
    solicited favors from a prohibited source. The individual took advantage of his official position to
    obtain employment for two of his relatives, including requesting that a USAID implementing partner
    create a new position for one of them. The individual was subsequently debarred from government
    contracts based on an OIG referral.

Work Planned for the Remainder of FY 2011

For FY 2011, USAID OIG expects to conduct six performance audits and two financial audits:




                                                                                                      40
•   Audit of USAID/Pakistan’s Pre-Service Teacher Education Program (Pre-STEP). This
    audit will determine whether the program is helping teachers improve their professional
    qualifications.

•   Audit of USAID/Pakistan’s Emergency Cash Transfer Program – University and
    Technical Education Component. This audit will determine whether funds provided to the
    Government of Pakistan under the program are being used for their intended purpose of providing
    budget support.

•   Audit of USAID/Pakistan’s Road Rehabilitation and Reconstruction Activities Under
    the Quick Impact Projects in South Waziristan. This audit will determine whether these
    activities are achieving the mission’s main goal of rebuilding selected roads.

•   Audit of USAID/Pakistan’s Pakistan Firms Project. This audit will determine whether the
    project is strengthening the business sector and improving the productivity and quality of Pakistani
    firms.

•   Audit of USAID/Pakistan’s Energy Efficiency and Capacity Program. This audit will
    determine whether the program is promoting energy efficiency and conservation and building the
    capacity of public sector organizations to better address the needs of the energy sector.

•   Audit of USAID/Pakistan’s Community Rehabilitation Infrastructure Support Program.
    This audit will determine whether the program is constructing and renovating community
    infrastructure to improve the delivery of basic human services such as education, health care, water
    supply, sanitation, electricity, and transportation, as well as to promote economic growth in
    Pakistan’s rural areas.

•   Financial Audit of USAID Funds Managed by the Ministry of Economic Affairs and
    Statistics (Economic Affairs Division) Under the Cash Transfer Grant Agreement,
    Activity No. 391-012-IL-02, for Support to Low-Income Families Through the Benazir
    Income Support Program, for the Period September 30, 2009, to June 30, 2010.

•   Financial Audit of USAID Funds Managed by the Ministry of Economic Affairs and
    Statistics (Economic Affairs Division) Under the Cash Transfer Grant Agreement,
    Activity No. 391-012-IL-03, for University and Technical Education in FATA Through
    the Pakistan Higher Education Commission, for the Period September 30, 2009, to
    June 30, 2010.


Department of State Office of Inspector General

Work Under Way for FY 2011

As of September 30, 2010, DOS OIG had one performance evaluation under way:

•   Review of Pakistan Internally Displaced Persons (Performance Evaluation). The review
    is determining whether (1) U.S. Government and international organizations have effectively met the
    protection, food, and other assistance needs of Pakistan’s IDPs, (2) whether the U.S. Government

                                                                                                      41
    has a coordinated and effectively managed program to protect and assist these persons, and (3) the
    program has accounted for the flow and use of funds provided to assist Pakistani IDPs. This
    evaluation is in the final report stage.

Work Planned for the Remainder of FY 2011

The DOS OIG has three evaluations planned for FY 2011:

•   Review of Internal Management Controls of Funds Provided to Pakistan (Performance
    Evaluation). The review will determine whether specific internal controls have been properly
    designed and put in place for the Pakistan program funds, including procedures for planning,
    organizing, directing, and controlling program operations. The review will also assess the system put
    in place for measuring, reporting, and monitoring program performance.

•   Review of Local Security Guard Program – Embassy Islamabad (Performance
    Evaluation). The review will examine and summarize the requirements and provisions of the
    Islamabad Embassy Security Force contract, including the objectives of the contract and task orders,
    indicators established to measure performance, and internal controls over the contractor’s
    performance and contract costs.

•   Review of Emergency Action Plans for Embassies Baghdad, Kabul, and Islamabad
    (Program Evaluation). The review will assess the status and effectiveness of emergency action
    plans for Embassies Baghdad, Kabul, and Islamabad to determine their reasonableness and their level
    of coordination with the military commanders in-country.
 
Department of Defense Office of Inspector General

The Department of Defense OIG has one Pakistan assignment planned for FY 2011:

•   Pakistan Security Assistance and Coalition Support Funds. This project will assess whether
    security assistance and support funds have been managed effectively. Additional research will
    identify specific objectives.

Government Accountability Office

GAO is an independent, nonpartisan agency that oversees Federal Government spending. GAO’s
mission is to help improve the performance and ensure the accountability of the Federal Government
for the benefit of the American people. GAO performs oversight at the request of Congress.
Additionally, GAO may be required to research issues mandated by public laws or may undertake work
prompted by broad-based congressional interest under the authority of the Comptroller General. GAO
supports congressional oversight through many avenues, such as auditing agency operations, investigating
allegations of illegal activities, reporting on the efficiency and effectiveness of government programs and
policies, analyzing policy, outlining options for congressional consideration, and issuing legal decisions
and opinions. GAO consults with key members of the accountability community, including the



                                                                                                        42
inspectors general. For example, GAO participates in the Afghanistan-Pakistan Subgroup, which is
chaired by USAID OIG and focuses on oversight of U.S. programs in those two countries.
 
Work Under Way for FY 2011

From July 1 through September 30, 2010, the GAO had five ongoing engagements concerning Pakistan:

•   Accountability for U.S. Defense Equipment Transferred to Pakistan. This engagement is
    assessing Department of Defense efforts to monitor and oversee U.S.-provided defense equipment
    transferred to Pakistani security forces, including sensitive defense articles and small arms. GAO
    expects to issue a report in November 2010.

•   U.S. Efforts to Enhance Pakistan’s Security Forces. This engagement is assessing (1) U.S.
    plans and funding for improving the counterterrorism and counterinsurgency capabilities of Pakistani
    security forces operating in the western frontier bordering Afghanistan; (2) the status of specific
    projects and activities and the challenges associated with implementing those efforts; and (3) the
    extent to which agencies’ monitoring and oversight of U.S.-funded activities in support of this effort
    provide reasonable assurance that funds are used and activities are implemented as intended. GAO
    expects to complete this engagement in spring 2011.

•   Pakistan Assistance Strategy Report. This engagement is mandated by section 302(b)(1) of the
    Enhanced Partnership with Pakistan Act of 2009 (Public Law 111-73). It will assess the report
    describing U.S. policy and strategy for U.S. democratic, economic, and development assistance to
    Pakistan authorized by Title I of the act ($1.5 billion for 5 years, $7.5 billion total). GAO is tasked
    with commenting on the strategy, making recommendations to improve the efficiency and
    effectiveness of U.S. efforts, describing Pakistan’s expenditures under the Foreign Military Financing
    Program, and assessing the impact of U.S. assistance on the security and stability of Pakistan. GAO
    plans to issue a report in February 2011.

•   Pakistan’s Anti-Terror Efforts. The Enhanced Partnership with Pakistan Act of 2009 prohibits
    military assistance and arms transfers to Pakistan in FY 2011–14 unless the President certifies that
    Pakistan is making significant progress in combating terrorist groups—including ceasing support for
    such groups, preventing them from operating in Pakistan, and strengthening counterterrorism and
    anti-money-laundering laws—and its security forces are not subverting the country's political or
    judicial processes. The act requires GAO to independently assess this certification, which GAO will
    do by assessing the extent to which (1) U.S. officials assessed and disclosed the reliability of evidence
    used to support the certification; (2) conclusions in the certification are consistent with the views of
    experts, academia, and other U.S. agencies, or differences are explained; and (3) there are gaps in
    the issues that the U.S. Government considered in making the certification. GAO expects to
    complete the assessment 120 days after the President’s certification is sent to Congress.

•   Pakistan Nuclear Networks. The Enhanced Partnership with Pakistan Act of 2009 prohibits
    military assistance and arms transfers to Pakistan in FY 2011–14 unless the President certifies that
    Pakistan is continuing to cooperate with the United States in efforts to dismantle nuclear supplier
    networks relating to the acquisition of nuclear weapons-related materials—for example, by
    providing relevant information from or direct access to Pakistani nationals associated with such
    networks. The act requires GAO to independently assess this certification. This engagement will
    assess the extent to which (1) U.S. officials assessed and disclosed the reliability and accuracy of
    documentary evidence used to support the President's certification that Pakistan is cooperating with
    the U.S. Government in dismantling nuclear weapons-related supplier networks; (2) conclusions in

                                                                                                          43
    the certification are consistent with the views of experts in private sector research organizations,
    academia, and other U.S. agencies, or are explained where they differ; and (3) there are gaps in the
    issues that the U.S. Government considered in making its certification. GAO expects to complete
    this assessment 120 days after the President’s certification is sent to Congress.

Work Planned for the Remainder of FY 2011 

In response to congressional interest, GAO may begin additional work on Pakistan and relate its findings
in subsequent reports.




                                                                                                      44
Completed Oversight Reports, as of September 30, 2010

Table 9 lists oversight reports completed since the passage of the Enhanced Partnership with Pakistan
Act, October 15, 2009.

               Table 9. Oversight Reports Completed as of September 30, 2010

Agency     Report Number        Report Date                             Report Title

                                    8/31/10      Audit of USAID/Pakistan’s Family Advancement for Life and
USAID     5-391-10-012-P
                                                 Health Program

                                                 Financial Audit of the Pakistan Competitiveness Support
                                    8/04/10      Fund, USAID/Pakistan Grant Agreement No. 391-G-00-06-
USAID     G-391-10-001-R
                                                 01073-00, Managed by the Competitiveness Support Fund
                                                 (CSF), for the Period February 3, 2006, to June 30, 2009
                                                 Audit of USAID/Pakistan’s Primary Healthcare Revitalization,
                                    6/28/10
USAID     5-391-10-010-P                         Integration and Decentralization in Earthquake-Affected
                                                 Areas Project

                                    6/28/10      Review of USAID’s Internally Displaced Persons Programs in
USAID     5-391-10-001-S
                                                 Pakistan

                                    6/10
DOS        ISP-I-10-64                           Inspection of Embassy Islamabad, Pakistan

                                                 Financial Audit of USAID Funds Managed by Forman
                                    5/18/10
USAID     5-391-10-033-R                         Christian College, Lahore, for the Period July 1, 2007, to
                                                 June 30, 2009

                                    4/30/10      Financial Audit of USAID Funds Managed by Khushhali Bank
USAID     5-391-10-029-R
                                                 for the Year Ended December 31, 2008

                                                 Combating Terrorism: Planning and Documentation of U.S.
                                    4/2010
GAO        GAO-10-289                            Development Assistance in Pakistan's Federally
                                                 Administered Tribal Areas Need to Be Improved
                                                 Closeout Financial Audit of USAID Funds Managed by
                                    3/24/10
USAID     5-391-10-026-R                         Greenstar Social Marketing Pakistan (Guarantee) Limited,
                                                 for the Period July 1 to December 31, 2007
                                                 The Bureau of International Narcotics and Law Enforcement
                                    3/10
DOS        MERO-A-10-03                          Affairs Air Wing Program in Afghanistan and Pakistan,
                                                 Performance Audit
                                                 Closeout Financial Audit of USAID Funds Managed by Aga
                                    2/11/10
USAID     5-391-10-020-R                         Khan University—Examination Board, for the Year Ended
                                                 December 31, 2007
                                    1/28/10      Audit of USAID/Pakistan’s Capacity Building for the
USAID     5-391-10-005-P
                                                 Federally Administered Tribal Areas Development Program
                                                 Financial Audit of USAID Funds Managed by Children’s
                                   12/22/09
USAID     5-391-10-012-R                         Global Network Pakistan Limited, for the Year Ended
                                                 June 30, 2008



                                                                                                            45
Agency   Report Number   Report Date                         Report Title
                                       Status of the Bureau of International Narcotics and Law
                          12/09
DOS      MERO-A-10-02                  Enforcement Affairs Counternarcotics Programs in
                                       Afghanistan, Performance Audit
                          11/09        Effectiveness of Counter Narcotics Programs in Pakistan,
DOS      MERO-A-10-01
                                       Performance Audit




                                                                                                   46
                                                                                               Appendix I




Appendix I—The Enhanced Partnership with Pakistan
           Act of 2009, Public Law 111-73

Title I. Democratic, Economic, and Development Assistance

Title I authorizes five types of programs, identified below. Also, Title I encourages the President to
utilize Pakistani firms and nongovernmental organizations, as appropriate, and to work with local leaders
to provide assistance. It states that assistance funds shall be utilized to the maximum extent possible as
direct expenditures for projects and programs. Finally, up to $30 million of the $1.5 billion per year
authorized for Title I will be available to the Inspectors General for the Department of State and USAID
for audits, investigations, and other oversight activities.

Title I Programs

1. Consolidation of democratic institutions
   • Support for efforts to strengthen Pakistan’s institutions, including the National Parliament
   • Voter education and civil society training
   • Political party capacity building
   • Capacity strengthening for the civilian Government of Pakistan

2. Rule of law, government capacity, and respect for human rights
   • Establishment of frameworks that promote government transparency and criminalize corruption
   • Police professionalization, including training regarding use of force, human rights, and community
      policing
   • Support for judicial and criminal justice systems
   • Legal and political reforms in FATA
   • Counternarcotics support
   • Promotion of human rights
   • Support for responsible, capable, and independent media

3. Economic freedom and economic development
   • Investments in water resource management systems
   • Farm-to-market roads, systems to prevent spoilage and waste, and other small-scale
      infrastructure improvements
   • Investments in energy
   • Employment generation
   • Support for worker rights
   • Increased access to microfinance
   • Expanded opportunities and training for youth at risk of radicalization


                                                                                                       47
                                                                                                                Appendix I


4. Investment in people
   • Support for primary and secondary education and vocational and technical training
   • Higher-education programs
   • Public health programs
   • Capacity-building support for nongovernmental and civil society organizations
   • Assistance to refugees and internally displaced persons and long-term development programs in
      high-conflict regions

5. Public diplomacy
   • Opportunities for civil society and other leaders to speak out against militancy and violence
   • Expanded exchange activities to promote mutual understanding and interfaith dialogue

Title II. Security Assistance

Title II authorizes three types of programs, identified below. Assistance under Title II requires
certifications by the Secretary of State, under the direction of the President, that (1) the Government of
Pakistan is continuing to cooperate with the United States in efforts to dismantle supplier networks
relating to the acquisition of nuclear weapons-related materials, (2) the Government of Pakistan has
demonstrated a sustained commitment to and is making significant efforts toward combating terrorist
groups, and (3) the security forces of Pakistan are not materially and substantially subverting the political
or judicial processes of Pakistan. In addition, the act provides that direct cash payments may be
provided or made only to civilian authorities of a civilian government of Pakistan.

Title II Programs

1. International military education and training
It is the sense of Congress that a substantial amount of the funds appropriated for international military
education and training should be for courses in counterinsurgency and civil-military relations.

2. Foreign military financing program
Grant assistance is authorized under the Arms Export Control Act 13 to purchase defense articles,
defense services, and military education and training for Pakistan. A significant portion of the amount
made available to carry out this subsection for a fiscal year shall be for the purchase of defense articles,
defense services, and military education and training for activities relating to counterinsurgency and
counterterrorism operations in Pakistan. It is the sense of Congress that a significant majority of funds
should be used for such purposes, and that the United States should facilitate reconstruction assistance,
including through Pakistan’s military as appropriate, in areas damaged by combat operations.



                                                            
13   The most recent version of the Arms Export Control Act of 1976 is codified at 22 U.S.C. § 2751 et seq.).

 


                                                                                                                        48
                                                                                               Appendix I


3. Exchange program between Pakistani military and civilian personnel and personnel in
other countries
Exchange programs are authorized between civilian and military Pakistani personnel and personnel in
NATO member countries and other countries, as determined by the Secretary of State, to foster
mutual respect for and understanding of the principle of civilian rule of the military.

Title III. Strategy, Accountability, Monitoring, and Other Provisions

Title III requires the submission of certain strategy and monitoring reports:

• Pakistan assistance strategy report describing the principal objectives and specific programs
planned to carry out Title I of the act (45 days after enactment).

• Comprehensive regional security strategy report describing a comprehensive interagency
regional security strategy to eliminate terrorist threats and close safe havens in Pakistan (180 days after
enactment).

• Security-related assistance plan describing proposed uses of security-related assistance (180 days
after enactment).

• Semiannual monitoring reports describing assistance provided under Title I including an
assessment of the effectiveness of the assistance provided (every 180 days).

• Report by GAO including a review of the Pakistan assistance strategy report, recommendations
relating to any actions needed to improve the efficiency and effectiveness of U.S. efforts to meet the
objectives of the act, a detailed description of the expenditures made by Pakistan pursuant to grant
assistance under Section 23 of the Arms Export Control Act (22 U.S.C. 2763; relating to the Foreign
Military Financing program), and an assessment of the impact of the assistance on the security and
stability of Pakistan (1 year after submission of the Pakistan assistance strategy report).

• GAO report regarding certifications that (1) the Government of Pakistan is continuing to
cooperate with the United States in efforts to dismantle supplier networks relating to the acquisition of
nuclear weapons-related materials, (2) the Government of Pakistan has demonstrated a sustained
commitment to and is making significant efforts toward combating terrorist groups, and (3) the security
forces of Pakistan are not materially and substantially subverting the political or judicial processes of
Pakistan (120 days after certifications are made).




                                                                                                        49
                                                                Appendix II




Appendix II—–Abbreviations
CYP        couple years of protection

DEA        Drug Enforcement Administration

DHS        Department of Homeland Security

DOC        Department of Commerce

DOD        Department of Defense

DOS        Department of State

Ed-LINKS   Links to Learning—Education Support to Pakistan

FBI        Federal Bureau of Investigation

FATA       Federally Administered Tribal Areas

FY         fiscal year

GAO        Government Accountability Office

GENCO      Power Generation Company

GOP        Government of Pakistan

IDPs       internally displaced persons

INL        International Narcotics and Law Enforcement (DOS)

IT         information technology

IRG        International Resources Group

MWP        Ministry of Water and Power

NAB        National Accountability Bureau

NAS        Narcotics Affairs Section (U.S. Embassy Islamabad)


                                                                         50
                                                                                 Appendix II


NATO       North Atlantic Treaty Organization

NDMA       National Disaster Management Authority (Government of Pakistan)

NGO        nongovernmental organization

OIG        Office of Inspector General

OTI        Office of Transition Initiatives (USAID)

PAS        Public Affairs Section (U.S. Embassy Islamabad)

POL        Political Affairs Section (U.S. Embassy Islamabad)

PRM        Bureau of Population, Refugees, and Migration (Department of State)

Pre-STEP   Pre-Service Teacher Education Program

RSO        Regional Security Office (U.S. Embassy Islamabad)

TI-P       Transparency International - Pakistan

U.N.       United Nations

UNFPA      United Nations Population Fund

UNHCR      Office of the United Nations High Commissioner for Refugees

UNICEF     United Nations Children’s Fund

USAID      U.S. Agency for International Development

USDA       U.S. Department of Agriculture

USIP       U.S. Institute for Peace

USTDA      U.S. Trade and Development Agency

WAPDA      Water and Power Development Authority
 




                                                                                          51
